<html>
<title> - CLOSING THE DIGITAL DIVIDE: CONNECTING NATIVE NATIONS AND COMMUNITIES TO THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 112-414]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-414

                      CLOSING THE DIGITAL DIVIDE:
     CONNECTING NATIVE NATIONS AND COMMUNITIES TO THE 21ST CENTURY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                  U.S. GOVERNMENT PRINTING OFFICE
74-487 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
MARK WARNER, Virginia                PATRICK J. TOOMEY, Pennsylvania
MARK BEGICH, Alaska                  MARCO RUBIO, Florida
                                     KELLY AYOTTE, New Hampshire
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                Rebecca Seidel, Republican Chief Counsel














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 5, 2011....................................     1
Statement of Senator Inouye......................................     1
Statement of Senator Udall.......................................    35
Statement of Senator Begich......................................    39

                               Witnesses

Myron P. Naneng, Sr., President, Association of Village Council 
  Presidents (AVCP)..............................................     3
    Prepared statement...........................................     6
Geoffrey Blackwell, Chief, Office of Native Affairs and Policy, 
  Federal Communications Commission..............................     9
    Prepared statement...........................................    11
Alapaki Nahale-a, Chairman, Hawaiian Homes Commission; and 
  Director, Department of Hawaiian Home Lands....................    15
    Prepared statement...........................................    17
Loris Taylor, Native Public Media and National Congress of 
  American Indians (NACI) Telecommunications Subcommittee........    20
    Prepared statement...........................................    22
John Badal, CEO, Sacred Wind Communications, Inc.................    23
    Prepared statement...........................................    26

                                Appendix

National Translator Association, prepared statement..............    45

 
 CLOSING THE DIGITAL DIVIDE: CONNECTING NATIVE NATIONS AND COMMUNITIES 
                          TO THE 21ST CENTURY

                              ----------                              


                         TUESDAY, APRIL 5, 2011

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:28 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Daniel K. Inouye, 
presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. I have been authorized by Chairman 
Rockefeller to preside over this very important hearing.
    In my 33 years of service on the Indian Affairs Committee, 
I've been fortunate to learn about the history of our country 
and its relations with the indigenous Native People who occupy 
and exercise sovereignty on this continent.
    As a nation we have changed courses many times in the 
policies governing our dealings with Native Americans; and 
Native People, history shows, have suffered greatly.
    Finally, over the last several decades we adopted a policy 
of recognizing and supporting the rights of this nation's first 
Americans: Native Americans, Alaskan Natives and Native 
Hawaiians, and we must continue our resolve to uphold this 
policy; and telecommunications is an important investment we 
can make in the future.
    In 2004 I chaired a Senate Committee on Indian Affairs 
hearing on the Native American Connectivity Act. That hearing 
focused on ways to help tribal Governors develop the necessary 
telecommunications infrastructure so that native communities 
can have access to basic telephone service as well as broadband 
and wireless technology.
    While some progress has been made over the years, as 
clearly outlined in the Federal Communications Commission's 
National Broadband Plan, there are significant unmet needs and 
opportunities in Indian and native communities.
    Today's hearing will examine the ongoing communication 
challenges facing native communities, including Indian tribes, 
Alaska Native Villages and Hawaiian Homelands.
    Native Hawaiians have had a special political and legal 
relationship with the United States for the past 183 years, as 
evidenced through treaties with the United States, and are 
included in more than 188 federal statutes.
    Historically, native communities had less access to 
telecommunication services than any other segment of the United 
States population. The lack of good, reliable and affordable 
telecommunications infrastructure impedes economic development, 
educational opportunities, language retention and preservation, 
and access to healthcare and emergency services.
    According to the most recent data, less than 70 percent of 
the households on tribal lands have basic telephone service, 
compared to the national average of approximately 98 percent.
    And, let me repeat this again: less than 70 percent of 
households on tribal lands have basic telephone service, 
compared to the national average of approximately 98 percent.
    Further, it is estimated that broadband reaches less than 
10 percent--less than 10 percent--of tribal lands compared to 
95 percent of households nationwide.
    In Hawaii, native communities face the challenge of being 
rural, remote and noncontiguous, both an island, as well as 
between islands. And Alaska shares many of these same 
challenges, since its rural and remote villages are isolated 
and not connected to road systems.
    So, I'm very pleased that the Federal Communications 
Commission has taken an active interest in identifying and 
working to meet the needs of native communities through its 
adoption of the National Broadband Plan and creating the Office 
of Native Affairs and Policy with Geoffrey Blackwell as its 
chief.
    The adoption of multiple agenda items of great interest to 
native communities last month is a testament to these efforts.
    I also appreciated the time Chairman Julius Genachowski and 
Mr. Blackwell spent in Hawaii learning firsthand about the 
special challenges facing native Hawaiian communities.
    Identifying the needs and how best to address them is only 
part of the equation. Reducing barriers and providing 
sufficient support to help native communities will be critical 
to the success.
    Of the $7.2 billion provided in the American Recovery and 
Reinvestment Act to fund broadband-related projects, only $46.3 
million was awarded to Native American awardees by the Commerce 
Department's Broadband Technology Opportunities Program.
    An additional $285 million was adopted for projects which 
claimed some benefit to tribes.
    The rural utility service, through its Broadband 
Improvement Program, provided $158 million in grants and loans 
to native communities or providers whose service may have 
touched native communities.
    Given the magnitude of the needs this can only be 
considered a small downpayment. Unfortunately, given the cost-
cutting environment on Capitol Hill, creative funding 
mechanisms will be necessary to support efforts to fully 
connect native communities.
    The worst thing we can do is to provide for an empty 
promise. Too much of that has gone on over these many years; we 
have much to make up for in terms of our nation's commitments 
to the native people of this land.
    So, I look forward to hearing from our distinguished panel 
of witnesses on these important issues and working with the FCC 
and native communities to achieve our common goals.
    As you know, we have a whole panel here, but I was just 
notified that the President of the Association of Village 
Council Presidents, Myron P. Naneng, Sr., has to return 
immediately because there was a death in his family.
    And, so, if I may call upon President Naneng to give his 
testimony at this time.
    Please proceed.

  STATEMENT OF MYRON P. NANENG SR., PRESIDENT, ASSOCIATION OF 
               VILLAGE COUNCIL PRESIDENTS (AVCP)

    Mr. Naneng. Thank you, Mr. Chairman, Senator Inouye. I'd 
like to thank you for the opportunity to speak on broadband's 
potential impact in rural Alaska, and more potentially, the 
positive impact that broadband will have in rural Alaska as 
well as for education and other issues that are affecting 
people that live in rural Alaska.
    My name is Myron P. Naneng, Sr., President of the 
Association of Village Council Presidents, representing 56 
villages on the Yukon/Kuskokwim Delta, which is the size of the 
State of Oregon.
    I am a member of the State of Alaska Broadband Task Force, 
representing Alaska Federation of Natives, which is a statewide 
native organization.
    I have also served as chairman of a telephone company that 
provided local exchange, cellular and Internet services, United 
Utilities, from 1980 to 2008 when we sold the company.
    I will be providing copies of letters from AFN to 
Department of Commerce as part of the testimony to the 
Committee.
    If cellular services and usage is of any indication of the 
need for connectivity in rural Alaska today, it's proven with a 
large demand of use by people who live in the villages.
    The cell phone service provider was not prepared for a high 
usage by people during the initial stages that it was 
introduced. Broadband has the same potential of making a bigger 
impact. It will enable users to obtain information quicker and 
make information available that was not even available 5 years 
ago.
    Today, our people in the villages want to be connected. I 
have a 3-year-old granddaughter who can--who is proficient in 
the use of an iPhone and an iTouch. This is the wave of today 
for young people in our villages; and it's quite amazing 
considering that there was only one phone in the villages in 
the 1970s that everybody had to share within their communities.
    Communication trends have been changing for the better; and 
opportunities that come with it have been embraced by all. 
Improved connectivity provides users with information on 
educational training and business opportunities as well as 
keeping up with current worldwide events.
    Information on jobs and opportunities that young people can 
apply for will be at their fingertips. This is going to create 
an information flow that is not available today and we all know 
that this is--this is now becoming a preferred method of 
communication for all our young people.
    In rural Alaska the only way to travel to most villages is 
by small airplane operated by hub based carriers. When a health 
emergency occurs, the villages who have health aides who are 
the first responders and who communicate with health 
professionals, doctors, nurse and counselors, when they 
encounter a health situation.
    With the expanded broadband will provide better 
connectivity; thereby better communications between regional 
hospitals, even major hospitals, in cities to support our 
village healthcare system, many of which have tele--
telemedicine communication systems. Many of the regional health 
corporations have established sub-regional clinics; and within 
the Y/K Delta we have five sub-regional clinics extended 
throughout the region.
    These sub-regional clinics have doctors and other 
healthcare professionals who support the villages in the 
surrounding areas as well. Even those regional clinics 
utilizing telemedicine communication systems to talk to a 
diagnosing of symptoms of those they're administrating 
healthcare to.
    Broadband with the expansion of bandwidth will also allow 
schools to expand the educational and training opportunities of 
students in a village school, especially in villages that are 
not meeting the No Child Left Behind requirements. Educational 
programs and other training opportunities would not be 
available to students in rural communities because of 
remoteness or size; and it can be made available with broadband
    Most of the students in villages, even though they graduate 
from high school and continue on to higher education 
institutions still have to take remedial courses to prepare for 
college. We seek the implementation of broadband to help reduce 
this requirement and give more students an opportunity to 
succeed in courses they take in universities or training 
courses.
    Adults may not be able to travel to universities due to 
families and/or other reasons, can take educational courses 
through the expanded system from an accredited college that 
offer courses through the Internet.
    Nowadays we are seeing more young people getting their 
education by staying home and taking courses through the 
Internet. There are other--there are also many employer-
sponsored training opportunities that can be delivered 
electronically if the infrastructure is in place.
    Again, a reminder that the Yukon/Kuskokwim Delta is the 
size of the State of Oregon and there are no roads in rural 
Alaska, so the cost of everything especially is really, really 
expensive. To get to training we have to travel to a regional 
hub such as Bethel, St. Mary's Aniak and on to Anchorage; and 
further if the training is out of state. The cost of a round-
trip ticket from any one of our villages to Bethel can range 
between $150 to $900; and that's just to Bethel.
    To consider the opportunities that will come with increased 
broadband, bandwidth and connectivity I think this will help in 
reducing the cost for people who live in rural Alaska.
    Another consideration is the fact that in rural Alaska 
there is no choice of providers and connectivity--connection; 
and the connection is weak. We currently do not have cell phone 
or Internet connections in many remote parts of Alaska; where 
we do, the signal is not strong, resulting in many lost calls 
or no connectivity. Because we have no choice in providers we 
are limited to the provider of the service area, and at the 
mercy of the provider with regards to options, plan designs and 
costs.
    For many villages and their leaders the ability to identify 
funding which can be used for village purposes will be a major 
step for economic sustainability. Jobs can be created with this 
new technology that otherwise does not exist today.
    Grant submissions for granting agencies, especially now 
with the requirements to submit grants via Internet or 
paperless are hindering many of our villages to submit grant 
application and financing reporting today. Some have lost 
opportunities, so broadband will make it easier for villages 
and even regional organizations, such as AVCP, to submit grant 
applications before deadlines occur.
    This will create infrastructure expansion for both villages 
and regional entities that are working with villages, and 
create more job opportunities that currently do not exist in 
any of our villages.
    We see the benefits to broadband; the expansion of 
bandwidth; the positive changes it will bring, and 
opportunities in getting information and expanding local 
village economies.
    The potential use--the potential uses in search and rescue 
operations: telecommunications for health and--health services, 
education in schools and even public safety. Broadband 
expansion will help provide law enforcement with a better means 
of communications between village public safety officers who 
lead search and rescue operations and other law enforcement 
duties with other law enforcement personnel.
    A child from one of the European villages can most likely 
communicate with a Yupik, Cupik or Athabascan child from rural 
Alaska. Maybe even today it can be expanded through broadband. 
They might learn from our children that we do not have iced-
piped sewer systems or igloos, but that honey buckets are still 
in the villages that cause health concerns in villages that 
don't have water and sewer systems that are taken for granted 
in most of the United States communities.
    Maybe even our leaders in Congress or the Oval Office would 
realize that many Americans still lack the infrastructure that 
can improve the quality of life. For Americans who live in 
rural Alaska, broadband will bring the things into real time 
views, not just from Discovery Channel of Alaska shows but 
directly from people who live in rural Alaska and real people.
    Mr. Chairman, thank you for the opportunity to testify and 
provide a short summary of what we anticipate will make a 
difference in rural Alaskan villages. And, we know that big--we 
know will make a bigger impact on educating not only those who 
live in rural Alaska, but those who live in urban America as 
well.
    And, I'd like to add a comment from one of the teachers in 
one of the schools a broadband can do and stated. It's a 
principal from the village high school of Hooper Bay who made 
the comments, regarding--and for informational purposes, Hooper 
Bay's closer to Russia than a lot of people think. It's out in 
the Bering Sea Coast.
    Regarding high speed Internet service for Hooper Bay School 
students and community, currently our educational programs have 
become very dependent on reliable high speed Internet 
connectivity with corresponding bandwidth to meet the demands 
of our students logging into computer-aided instructional 
program through the Internet. My Skills Tutor and Carnegie Math 
are two programs that are Internet dependent along with general 
instruction programs for Internet access provides the basis for 
research projects in all content areas. We frequently face a 
situation where broadband or band width cannot meet the needs 
of over 100 of our 400 students requiring timely access to the 
Internet.
    When teachers assign a lesson dependent on Internet access 
and students cannot connect or get bumped off the connection it 
has serious consequences for the effectiveness of instruction 
and student engagement.
    Additionally, student access in community to complete 
homework assignments is not available at this time again 
compromising the potential of our students and expansion of our 
curriculum beyond the walls of the school.
    With that, thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Naneng follows:]

        Prepared Statement of Myron P. Naneng, Sr., President, 
            Association of Village Council Presidents (AVCP)
    Good afternoon, Mr. Chairman and members of the Senate Commerce 
Committee. I thank you for this opportunity to share my views on 
potential impacts, more for the positive what broadband will do in 
rural Alaska. My name is Myron P. Naneng, Sr., President of Association 
of Village Council Presidents, representing 56 villages on the Yukon/
Kuskokwim Delta, an area the size of the State of Oregon. I am a member 
of the State of Alaska Broadband Task Force, representing Alaska 
Federation of Natives, a Statewide Alaska Native Organization. I have 
also served as Chairman of a telephone company that provided local 
exchange, cellular and Internet services, United Utilities, Inc., from 
1980 to 2008, when we sold the company. I am providing copies of 
letters from AFN to Department of Commerce as part of the testimony to 
the Committee.
    If cell phone service and usage is any indication of the need for 
connectivity in rural villages today, it was proven with the large 
demand by people in many villages. The cell phone provider was not 
prepared for the high percentage of users in the initial stages. 
Broadband has a potential of making a bigger impact. It will enable 
users to obtain information quicker and make information available that 
was not available even 5 years ago. Today people want to be connected. 
I have a 3-year-old granddaughter who can proficiently use the iTouch. 
This is the wave of today and the future, and is quite amazing 
considering there was only one phone in each village for the villagers 
to share in the early 70s. Communication trends have been changing for 
the better, and the opportunities that come with it are embraced by 
all. Improved connectivity provides users with information on 
educational, training and business opportunities as well as current 
world wide events. Information on jobs and opportunities that young 
people can apply for will be at their fingertips. This is going to 
create an information flow that is not available today in many villages 
and we all know this is the preferred method of communication for all 
young people.
    In rural Alaska, the only way to travel to most villages is by 
small airplanes operated by hub based carriers. When a health emergency 
occurs, the villages have health aides who are the first responders and 
who communicate with health professionals, doctors, nurses or 
counselors when they encounter a health situation.
    An expanded bandwidth of broadband will be provided better 
connectivity, thereby better communication between the regional 
hospitals or even major hospitals in cities to support the village 
health care systems--many of which have telemedicine communication 
systems. Many of the regional health corporations have established 
subregional clinics in the Y/K delta, the Yukon Kuskokwim Health 
Corporation has five subregional clinics that extend throughout the 
region. These subregional health clinics have doctors and other 
professional health care providers who support the villages in 
surrounding areas. Even these regional clinics utilize the telemedicine 
communication systems to talk through the diagnosis of symptoms of 
those they are administering health care to.
    Broadband with the expansion of bandwidth will also allow schools 
to expand the educational and training opportunities of the students in 
school, especially in villages that are not meeting the No Child Left 
Behind requirements. Educational programs and other training 
opportunities that would not be available to students in rural 
communities because of remoteness or size will be available through 
broadband. Most of the students in villages, even though they graduate 
from high school and continue onto higher education institutions still 
have to take remedial courses to prepare for college. We see the 
implementation of broadband reduce this requirement and give more 
students an opportunity to succeed in courses they take in universities 
or training courses.
    Adults who may not be able to travel to universities due to family 
and or other reasons can take educational courses through the expanded 
system from accredited colleges that offer courses through the 
Internet. Nowadays, we are seeing more young people getting their 
education by staying home and taking courses through the Internet. 
There are also many employer sponsored training opportunities that can 
be delivered electronically if the infrastructure is in place. Again, 
the Yukon-Kuskokwim Delta is the size of Oregon and there are no roads 
in rural Alaska so the cost of everything is really really expensive. 
To get training we have to travel first to a regional HUB (Bethel, St 
Marys, Aniak) then on to Anchorage and further if the training is out 
of state. The cost of a round trip ticket from any one of our villages 
to Bethel can range from $150-$900--and that is just to Bethel. So 
consider the opportunities that will come with increased broad band 
width and connectivity.
    Another consideration is the fact that in Rural Alaska there is no 
choice of provider and the connection is weak. We currently do not have 
cell phone and Internet connection in many remote parts of Alaska and 
where we do the signal is not strong, resulting in many lost calls or 
no connectivity. Because we have no choice in providers we are limited 
to the provider of the service area and are at the mercy of the 
provider with regard to options, plan design and cost.
    For many villages and their leaders, the ability to identify 
funding which can be used for village purposes will be a major step for 
economic sustainability. Jobs can be created with this new technology, 
that otherwise does not exist today. Grant submissions to granting 
agencies, especially now with the requirements to submit grants via 
Internet or paperless is hindering many of our villages to submit grant 
applications and finance reporting today. Some have lost opportunities, 
so broadband will make it easier for villages and even regional 
organizations, such as AVCP to submit grant applications before 
deadlines occur. This will create infrastructure expansion for both 
villages and regional entities that are working with villages and 
create more job opportunities that currently does not exist in many 
villages.
    We see benefits to broadband and expansion of bandwidth, the 
positive changes it will bring and provide opportunities in getting 
information and expanding local economies in villages. The potential 
uses in search and rescue operations, the telecommunication for health 
services and education in schools.
    Broadband expansion will also help in providing law enforcement 
with a better means of communication between Village Public Safety 
Officers, who lead search and rescue operations and other law 
enforcement duties with other law enforcement personnel.
    A child from one of the European countries can most likely 
communicate with a Yupik', Cupik' or Athabascan child from a rural 
Alaska village. They might learn from our children that we don't have 
iced piped sewer systems, or igloos, and that honey buckets are still 
in use in villages that cause health concerns in villages that don't 
have water and sewer systems that are taken for granted in most of the 
United States communities.
    Maybe, our leaders in Congress and Oval office will realize that 
many Americans still lack the infrastructure that can improve the 
quality of life for Americans who live in rural Alaska, broadband will 
bring things into real time views, and not just from Discovery Channel 
of Alaska shows but by direct communications with real people.
    Thank you for the opportunity to testify and providing a short 
summary of what we anticipate will make a difference in rural Alaska 
and villages, that we know will make a bigger impact on educating not 
only those who live in rural Alaska, but those who live in urban 
America as well.
    Quyana, Thank you.
                                Addendum
Comments by Hooper Bay HS Principal Scott Ballard
    Regarding high speed Internet service for Hooper Bay School 
students and community: Currently our educational programs have become 
very dependent on reliable high speed Internet connectivity with 
corresponding bandwidth to meet the demands of our students logging in 
to computer-aided instructional programs through the Internet.
    My Skills Tutor and Carnegie Math are two programs that are 
Internet dependent, along with general instructional programs where 
Internet access provides the basis for research projects in all content 
areas. We frequently face a situation where our bandwidth cannot meet 
the needs of over 100 out of our 400 students requiring timely access 
to the Internet. When teachers assign a lesson dependent on Internet 
access and students cannot connect or get bumped off the connection, it 
has serious consequences for the effectiveness of instruction and 
student engagement.
    Additionally, student access in the community to complete homework 
assignments is not available at this time, again compromising the 
potential of our students and the expansion of our curriculum beyond 
the walls of the school.
    Quyana, Thank you.

    Senator Inouye. Mr. President, I thank you very much for 
your testimony, and I realize because of death in your family 
you will have to rush off, so I have submitted questions for 
your consideration.
    But without objection, I'd like to recognize your Senator, 
Senator Begich for comments he may have.
    Senator Begich. Myron, thank you very much for being here, 
and I express my condolences for your loss. And, I know you 
have to leave. So, if I could again, first thank the Chairman 
for having this hearing, but ask if I could, just one question. 
We'll have more for the record, but I know you need to go.
    So, the Universal Service Fund, which myself and Senator 
Thune have put a letter out asking other Senators to support us 
on this effort, impacts the 56 rural communities that you 
represent. How would you rate the importance of the Universal 
Service Fund for connectivity and accessibility for the 
villages? How important was it to really utilize?
    Mr. Naneng. Yes, it's a very important part of being able 
to connect even the telephone systems within the village. Like 
I state in my testimony, there's one phone for each village 
back in the 1970s. Universal Service Fund has given the 
telephone companies the opportunity to expand to each home.
    And, you know, if I could give an example for myself: I 
lived up at Fairbanks at the University of Alaska while going 
to school. My wife-to-be lived at Scammon Bay. Long distance 
dating by one telephone was not a very good situation, but I 
think--I believe that the Universal Service Fund has really 
made a big difference in making phones available to each and 
every home that was--is within the current system; and I think 
that Universal Service Fund can also be expanded to provide 
opportunities and expansion of the Internet and cellular phone 
systems.
    Senator Begich. Very good. Thank you, Myron. And I think 
the only comment I'll make is, I appreciate your testimony, 
because I think many times it's hard for people to understand 
the value of communication within rural Alaska. You know, 
without it we can't deliver medical services, educational 
services, as you just described, and basic commerce.
    But the one piece of the whole, as I travel throughout 
rural Alaska is the whole issue with medical clinics, and the 
utilization and what it's doing now to transform the villages 
to have the same kind of healthcare that any urban area could 
have through the Internet. And, that to me is most amazing. 
But, it takes bandwidth.
    Mr. Naneng. Yes.
    Senator Begich. We may be connected, but we're the slowest 
in the nation when it comes to bandwidth. Without that 
bandwidth, some of the clinics that are run through your 
villages will not have access that many of the rural 
communities or urban communities have; is that a fair 
statement?
    Mr. Naneng. Yes, it is.
    Senator Begich. Very good. Again, Myron, I don't want to 
take much more of your time, but I really appreciate you 
traveling this distance, but I know you have to get back; and I 
really appreciate you being here today.
    Mr. Naneng. Yes. Thank you, Senator.
    Senator Inouye. Thank you very much.
    And now may I call upon the Chief of the Office of Native 
Affairs and Policy, Consumer and Government Affairs Bureau of 
the Federal Communications Commission, Mr. Geoffrey Blackwell.

   STATEMENT OF GEOFFREY BLACKWELL, CHIEF, OFFICE OF NATIVE 
     AFFAIRS AND POLICY, FEDERAL COMMUNICATIONS COMMISSION

    Mr. Blackwell. Thank you, Chairman and Senator Inouye. Mr. 
Chairman, Senator Inouye and members of the Committee, hushchay 
and thank you for this opportunity to testify today.
    The lack of communication services in Native America is 
alarming. Only 67 percent of residents in native nations have 
basic telephone service; less than 10 percent have access to 
broadband, which is fast becoming the lifeblood of our 21st 
century economy, education, healthcare and public safety.
    Broadband can do much to level the negative historical 
impacts on native communities, but it must be available, 
accessible and affordable to meet its promise.
    Diverse and comprehensive needs makes it clear that one 
size fits none. The enormity of our mission is vast. The 
purpose of the Office of Native Affairs and Policy is to change 
the way we approach the communications problems of native 
nations and communities. We are charged with developing and 
driving a native agenda across the Commission, but changing our 
rules alone is not enough. We cannot, and will not only sit in 
Washington, make minor tweaks to our rules to do what we think 
will work and wait to see if they do. Complex problems dictate 
the need for new policies and procedures and well thought out 
solutions.
    Under Chairman Genachowski's leadership, with the entire 
Commission and all of its bureaus and offices, and in 
particular with the long-standing support of Commissioner 
Copps, there is a new way of doing native business at the 
Commission.
    Native Nations are front and center in that new paradigm. 
Our work with them is a strategic partnership in which we 
exercise the Commission's trust relationship with Native 
Nations. To fulfill our mission we are fostering the 
Commission's ongoing government-to-government dialogue by 
working directly with Native Nations to understand their needs 
and empower them to provide solutions.
    Our approach is to work together to identify and remove 
barriers and build models that engage their anchor 
institutions. We seek to place Native Nations themselves in the 
center of those solutions; whether is through self provisioning 
of services or through new tribal centric methods of deployment 
with industry, public or private partners.
    This active involvement of Native Nations is critically 
important to finding lasting solutions. To fulfill our mission 
and transform the landscape our office cannot be just another 
outside from Washington. Instead, it must be a knowledgeable 
and respected Native Nations insider.
    Immediately after the unanimous vote that established our 
office we hit the ground running, actually, rolling out the 
office in Native America, while at the same time working across 
the Commission to surface actions and proposals. We logged 
thousands of miles on a listening tour from here west to the 
Hawaiian Home Lands. We went deep into Native Nations, seeking 
the input of American Indian, Alaskan Native and Native 
Hawaiian leaders.
    In distance diagnosis sessions and classes from the native 
end of the signals we saw the human element of the lack of 
services, and the limitations of connectivity, speed, and 
reliability. Several times, we had to reset our phones, log off 
and log back in.
    After we kicked the dirt with the Native Nations we 
returned to Washington with knowledge in hand; and then, under 
the chairman's leadership the commission launched a series of 
groundbreaking proceedings at its March 3rd open meeting, named 
Native Nations Day.
    From rules expanding prioritized broadcasting 
opportunities, to proposed rules for new mobile wireless 
licensing, to an omnibus inquiry on a range of issues related 
to broadband adoption and deployment, the proceedings of Native 
Nations Day will serve as a foundation for consultation as a 
critical component of the Commission's rulemaking process.
    These include an inquiry on a Native Nations priority, to 
remove barriers to entry, the creation of a Native Nations 
broadband fund for myriad deployment purposes, and a 
commission-wide, uniform definition of tribal lands.
    Critical to the work of our office is also our close 
coordination with others across the commission, and we will 
continue to provide guidance on a variety of rulemakings and 
actions.
    One of our other top priorities is to overhaul, update and 
increase the collaborative value of the commission's Indian 
Telecom Initiatives outreach program. In addition, our work 
with the FCC Native Nations Broadband Task Force will ensure 
that concerns are considered in all relevant proceedings and 
that new recommendations are developed.
    In conclusion, we have heard several recurring themes from 
native leaders: continue to meet with us; listen to us, and use 
what we tell you to bring connectivity to our communities. The 
over-arching message is that if consultations are to be 
successful, if education and training sessions are to be 
productive, and if efforts to place Native Nations at the 
center of the process are to succeed, we must do our work 
within--we must do our work with Native Nations largely within 
their communities.
    Native Nations are aware of our office's abilities. Many 
have told us that in order to best help them, we must see the 
problems firsthand; work with them where the problems exist and 
endeavor to find the solutions in concert with them.
    We welcome all of these opportunities.
    Thank you again for the opportunity to testify this 
afternoon. Mado. I look forward to any questions you may have.
    [The prepared statement of Mr. Blackwell follows:]

   Prepared Statement of Geoffrey Blackwell, Chief, Office of Native 
         Affairs and Policy, Federal Communications Commission
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, thank you for the opportunity to testify today about the 
critical communications issues facing Native Nations and the 
Commission's efforts to find solutions.
    The lack of telecommunications services in Indian Country is 
alarming. After over 70 years of development and expansion of the 
telecommunications industry, only 68.9 percent of residents in Native 
Nations have basic telephone service. The statistics for broadband 
penetration are even more troubling--less than 10 percent of residents 
of Native Nations have access to what is fast becoming the lifeblood of 
our 21st century economy, educational opportunities, health care, and 
public safety.
    However, the oft-cited statistics paint only part of the picture--
behind them lurks a stark reality. The negative impacts of history fell 
particularly hard on Tribal and Native Communities, and aspects of this 
history resulted in an alarming lack of critical infrastructures. 
Broadband opportunities can do much to level this history in bringing 
health care, education, and jobs to Native Nations, but it must be 
available, accessible, and affordable to meet its promise. The purpose 
of the Office of Native Affairs and Policy is to change the way we 
approach the communications problems of Native Nations and Communities. 
There are numerous and comprehensive communications needs throughout 
Indian Country, and there is great diversity within those critical 
needs. That is, the need for telemedicine is greatest for some Native 
Nations, while the needs for educational technology or public safety 
are paramount for other Native Nations. In many places, connectivity 
occurs only in border towns and along major transportation routes 
inside Native Nations. It is clear that one size fits none, and the 
enormity of our mission is vast. Changing our rules alone is not 
enough. We cannot--and will not--be able to only sit here in 
Washington, make minor tweaks to our rules to do what we think will 
work, and wait to see if they do. Complex problems dictate the need for 
new policies and procedures, and well thought-out solutions.
    That is the mission of the Office of Native Affairs and Policy, 
created by a unanimous vote of the Commission on August 12, 2010, 
implementing a recommendation of the National Broadband Plan. The 
Office is charged with developing and driving a Tribal agenda at the 
Commission and serves as the Commission's primary point of contact on 
Native issues. Under Chairman Genachowski's leadership, and with the 
involvement of the entire Commission and all of its Bureaus and 
Offices, there is a new way of doing Native business at the Commission, 
and Native Nations are front and center in that new paradigm. Our work 
with Native Nations is a strategic partnership, one in which we 
effectuate and exercise the trust relationship that the Commission 
shares with Native Nations.
    The Office is charged with bringing the benefits of a modern 
communications infrastructure to all Native communities by, among other 
things, ensuring robust government-to-government consultation with 
Federally-recognized Tribal governments and other Native organizations; 
working with Commissioners, Bureaus, and Offices, as well as with other 
government agencies and private organizations, to develop and implement 
policies for assisting Native communities; and ensuring that Native 
concerns and voices are considered in all relevant Commission 
proceedings and initiatives.
The Efforts of the Office of Native Affairs and Policy
    To fulfill its mission, the Office is fostering the Commission's 
ongoing government-to-government dialogue with Native Nations by 
working directly with them to understand their needs and empower them 
to provide their own solutions. New opportunities must be created for 
Native Nations and those who work with them to find sustainable 
solutions. Our approach is to work together to identify and remove 
barriers to solutions and build models with Native Nations that engage 
their core community or anchor institutions. We seek to place Native 
Nations themselves in the center of those solutions, whether it is 
through actual self-provisioning of communications services or through 
new ``Tribal-'' or ``Native-centric'' methods of deployment with 
industry, public, or private partners. As Native Nations uniquely know 
and govern their communities, this active involvement is a critically 
important component to finding lasting solutions in their communities.
    Immediately after being established, we hit the ground running, 
actually rolling out our introduction of the Office in Native America, 
while at the same time working across the Commission to surface actions 
and proposals. We logged thousands of miles on a ``listening tour'' 
from here to the Hawaiian Home Lands, seeking the input of American 
Indian, Alaska Native, and Native Hawaiian leaders. We went deep into 
the Native Nations, meeting collectively and individually with Native 
leaders and Native associations, Tribally-owned and operated 
communications providers, as well as talking with Native consumers and 
businesses.
    To obtain a firsthand view of the complexity of the problems, in 
places where the Commission had never been before, we engaged in 
distance education discussions from classrooms at the Native end of the 
signals. In remote health care clinics, accepting gracious invitations 
of the patients at the Native end of the line, we sat in on their 
diagnosis sessions with their far away doctors. We saw the human 
element of the lack of services, and the limitations of connectivity, 
speed, and reliability. Side-by-side with our Native Nation colleagues, 
we ``kicked the dirt'' within the Native Nations, to discuss how we can 
all help them with their development and deployment plans. Several 
times, we have had to reset our phones and blackberries, log off and 
log back in, and set our out-of-office automatic reply messages to let 
folks know we are traveling in unconnected regions.
    To fulfill our mission and transform the communications landscape, 
the Office of Native Affairs and Policy cannot be just another outsider 
from Washington. Instead, the Office must be a knowledgeable and 
respected Native Nations and Tribal lands insider. Collectively, our 
four senior staff members have over 40 years of experience working in 
the trenches of the Commission and directly with Native Nations. We 
stand ready for the challenge.
    Our work has just begun. Under the Chairman's leadership, the 
Commission launched a series of groundbreaking endeavors at its March 
3rd Open Meeting, on a day the Commission named ``Native Nations Day.'' 
It was a day of ``firsts''--the first time that the Commission used its 
meeting agenda to address matters entirely and specifically developed 
for Native Nations; the first time that Tribal leaders formally 
addressed the Commission at the start of an Open Meeting; and the first 
time that the Commission initiated a comprehensive inquiry and 
rulemaking proceeding focused exclusively on Native communications 
needs.
    From rules expanding broadcast opportunities, to proposed rules for 
new mobile wireless licensing opportunities, to an omnibus inquiry on a 
range of issues related to broadband adoption and deployment on Tribal 
lands, the proceedings of Native Nations Day will in part serve as the 
foundation for the nation-to-nation consultation with Native Nations 
that is a critical component of the Commission's rulemaking process.
The Proceedings of Native Nations Day--New Commission Approaches
    The Rural Radio Tribal Priority Order. Native Nations want to 
provide information and community news to their people, and are looking 
at radio programming to promote and preserve Native culture and 
language, and to advance cultural dialogue. Last year, the Commission 
took steps to address the imbalance in the number of radio stations 
licensed to Native Nations and communities, as compared to the rest of 
the country, when it adopted an historic Tribal Priority designed to 
award a decisive preference to any federally recognized American Indian 
Tribe or Alaska Native Village seeking to establish its first non-
commercial radio station on its Tribal lands. The Tribal Priority was 
greeted with enthusiasm by Native Nations, but it was noted that 
certain Native Nations, because of their historical or geographic 
circumstances, might not be able to take advantage of the priority. In 
a Second Report and Order adopted on Native Nations Day, the Commission 
addressed these special circumstances by adopting provisions to address 
the needs of non-landed Native Nations and those with small or 
irregularly shaped lands that make it difficult to meet some of the 
requirements of the Tribal Priority. In addition, the Commission 
adopted a Notice of Proposed Rulemaking seeking comment on proposals to 
apply the Tribal Priority to certain commercial FM channel allotments 
and potentially obviating the need to go to auction. The hope is that 
these new mechanisms can help Native Nations deploy services in this 
critical and widely adopted media technology, as they also build 
designs and resources for new advanced broadband platforms.
    The Wireless Spectrum Tribal Lands Notice of Proposed Rulemaking. 
While competitive market forces have spurred robust wireless 
communications services in many areas of our country, wireless 
connectivity for Native Nations remains at significantly lower levels. 
Native Nations have expressed to us many concerns that the situations 
they face at home involve the very basics of public safety--the 
inability to make a wireless call in an emergency. Native Nations have 
asked the Commission for greater access to robust wireless spectrum to 
meet the challenges of terrain and distance that many Native 
communities face and, for some time now, the need for this action has 
been critical. On Native Nations Day, the Commission adopted a Notice 
of Proposed Rulemaking to promote greater use of spectrum to help close 
the communications gap on Tribal lands and to ensure that Native 
Nations are at the center of the decision-making process. This NPRM, 
one of the most important requests from Native Nations in the last 
decade, strives to put licenses in the hands of those who will value 
the spectrum and build out on Tribal lands. Three of the five proposals 
launched in the NPRM would create new opportunities for Native Nations 
to gain access to spectrum through Wireless Radio Services licenses, 
while the other two proposals are designed to create new incentives for 
existing licensees to deploy wireless services on Tribal lands.
    The Native Nations Notice of Inquiry. The Commission has said on 
many occasions that broadband is indispensable infrastructure for 
economic growth and job creation, and nowhere is that need more acutely 
felt than on Tribal lands. The lack of robust broadband services--and, 
in fact, even basic communications services--contributes to the 
challenges Native Nations face in building strong economies with 
diverse businesses and development projects. On Native Nations Day, 
therefore, the Commission launched a broad-based inquiry into a wide 
range of communications issues facing Native Nations--an inquiry that 
will provide a foundation for updating the Commission's rules and 
policies to provide greater economic, market entry, and communications 
adoption opportunities and incentives for Native Nations. The result of 
a broad collaborative effort across the Commission, led by the Office 
of Native Affairs and Policy, the Notice will lay the groundwork for 
policies that can help Native Nations build economic and educational 
opportunities for their own Tribal lands. The Notice seeks comment on 
the best ways to support sustainable broadband deployment, adoption, 
and digital literacy training on Tribal lands. Among other important 
questions, the Commission also asks about the possibility of expanding 
the Tribal Priority concept into a Native Nations Priority, to identify 
and remove barriers to entry, rather than using a case-by-case waiver 
approach, thus making it easier for Native Nations to provide other 
services--wireless, wireline, and satellite--to their communities. The 
Commission also asks about opportunities to use communications services 
to help Native Nations address public safety challenges on Tribal 
lands, including the broad lack of 911 and E-911 services, and the 
needs of persons with disabilities on Tribal lands.
    Recognizing that, given their unique challenges and significant 
obstacles to broadband deployment, Native Nations need substantially 
greater financial support than is presently available, the Notice of 
Inquiry also seeks comment on a recommendation of the National 
Broadband Plan to establish a Native Nations Broadband Fund. The 
National Broadband Plan notes that grants from a new Native Nations 
Broadband Fund could be used for a variety of purposes, including 
bringing high-capacity connectivity to governmental headquarters or 
other anchor institutions, deployment planning, infrastructure build 
out, feasibility studies, technical assistance, business plan 
development and implementation, digital literacy, and outreach. In the 
Notice of Inquiry adopted on Native Nations Day, the Commission seeks 
comment on a number of issues associated with the establishment of the 
Native Nations Broadband Fund, including the need for such a fund, the 
purposes for which it would be used, and the level of funding.
    The Low-Income Notice of Proposed Rulemaking. The Low-Income 
program of the universal service fund, commonly known as Lifeline and 
Link Up, has been, and continues to be, a critically important 
component in extending the reach of communications services to Native 
Nations. But with a telephone penetration rate hovering below 70 
percent and a broadband penetration rate well below ten percent, much 
remains to be done. According to Gila River Telecommunications, Inc., a 
Tribally-owned telecommunications company, the telephone penetration 
rate for the Gila River Indian Community stands at 86 percent, still 
well below the national average of 98 percent but significantly above 
the average on Tribal lands. Gila River attributes its success in 
expanding the reach of telephone service largely to Lifeline, given 
that roughly 91 percent of the Community's elders participate in 
Lifeline. At the afternoon session of its March 3d Open Meeting, the 
Commission adopted a Notice of Proposed Rulemaking in which it proposes 
to reform and modernize Lifeline and Link Up--issues of great interest 
to Native Nations.
    The FCC-Native Nations Broadband Task Force. One of the top 
requests from Native Nations in the National Broadband Plan was the 
creation of a new FCC-Native Nations Broadband Task Force that would 
ensure that the Commission's consultation with Native Nations is an 
ongoing, continuous dialogue and a shared effort between partners. 
Chairman Genachowski fulfilled this request when, on Native Nations 
Day, he appointed to the Task Force 19 members representing Native 
Nations and 11 members representing Bureaus and Offices across the 
Commission. The Task Force will ensure that Native concerns are 
considered in all relevant Commission proceedings and will work to 
develop additional recommendations for promoting broadband deployment 
and adoption on Tribal lands. The Task Force will also coordinate with 
external entities, including other Federal departments and agencies. 
These efforts will culminate in more efficient ways of working with our 
Native Nation partners, the industries, and the institutions of Native 
Nations.
Conclusion: Coordinating and Consulting on a Commission-wide Native 
        Agenda
    Critical to the work of the Office of Native Affairs and Policy is 
its close coordination with other Bureaus and Offices across the 
Commission. Major rulemakings now always include the involvement of 
Native interests. For example, working closely with the Wireline 
Competition Bureau in the universal service reform context, the Office 
ensured that Native concerns were heard about losing voice service 
while undergoing a transition to new broadband technologies that may 
take longer to embed themselves in Native America than in other parts 
of America. To that end, the Office ensured that the Commission sought 
comment on whether a separate mechanism would be appropriate for Native 
Nations. Similarly, the Office of Native Affairs and Policy is working 
closely with the Wireless Telecommunications Bureau as they develop the 
Mobility Fund, which is a set of initiatives to promote deployment of 
broadband and mobile services and to provide an investment in wireless 
infrastructures, through a financially sensible transformation of the 
universal service fund. With our help and guidance, the Commission 
proposes to address Mobility Fund support for Tribal lands on a 
separate track to provide adequate time to coordinate with Native 
Nations, seek their input, and find good solutions. We will continue to 
provide guidance on a variety of rulemakings and initiatives throughout 
the Commission.
    The Office of Native Affairs and Policy is ready to roll up our 
sleeves and pull out our laptops as we continue our mission. Native 
Nations Day was a success, and the Commission is proud of the work it 
has done so far. However, we must build on that success and the success 
of our other activities since the creation of the Office a mere eight 
months ago. Among other things, one of our top priorities is to 
overhaul, update, and increase the collaborative value of the 
Commission's Indian Telecom Initiatives, or ITI, program, moving it 
from version 2.0 to version 10.0 and even beyond. We look forward to 
increasing the effectiveness and value of these regional workshops, 
trainings, consultation, and networking events. We also look forward to 
establishing a Federal interagency broadband working group that engages 
other Federal agencies concerned with Native Nations and with missions 
on Tribal lands related to broadband and communications deployment, 
such as education, health, public safety, energy, cultural 
preservation, and economic empowerment. With a new inter-agency 
initiative on Native broadband, the Federal government can coordinate 
both internally and directly with Native Nations on broadband-related 
policies, programs, and initiatives.
    Internally, we look forward to working with colleagues across the 
Commission to increase the value of the information tools that the 
Commission has for Native Nations and Communities. For example, the 
Commission's Spectrum Dashboard 2.0, which was unveiled last month, 
allows users to view the licenses and spectrum leases that cover 
specific or all Tribal lands. We plan to continue holding meetings with 
Native Nations to discuss how this and other Commission information 
tools can be improved and more responsive to the needs of Tribal 
communications planners. We also look forward to reviving an internal 
training and speaker series for decision makers and colleagues across 
the Commission on how to work with Native Nations and the basics of how 
to coordinate and conduct consultations with Native Nations.
    In conclusion, we have heard several recurring themes in our 
conversations with Native leaders--continue to meet with us, listen to 
us, and use what we tell you to bring communications on Tribal lands 
into the 21st century. The overarching message is that, if 
consultations are to be successful, if future education and training 
sessions are to be well-attended and productive, and if efforts to 
inform, educate, and put Native Nations at the center of the decision-
making process are to succeed, we must do our work with Native Nations 
largely within their Native communities. Native Nations are aware of 
our Office's abilities and many have told us that, in order to best 
help them solve communications problems, we must work with them where 
the problems exist, see the problems first-hand, and endeavor to find 
the solutions in concert with them. We welcome all of these 
opportunities.
    Thank you again for the opportunity to testify this afternoon. I 
look forward to answering any questions you may have.

    Senator Inouye. Thank you very much, Chief Blackwell.
    Regretfully, I must advise all of you that there's a roll 
call ending at this moment so I will call this hearing to a 
recess, but I'll be back in about 10 minutes.
    [Recessed.]
    Senator Inouye. Sorry to keep you waiting.
    Our next witness is the Chairman of the Department of 
Hawaiian Homelands, Mr. Alapaki Nahale-a.
    Mr. Chairman.

    STATEMENT OF ALAPAKI NAHALE-A, CHAIRMAN, HAWAIIAN HOMES 
            COMMISSION; AND DIRECTOR, DEPARTMENT OF 
                      HAWAIIAN HOME LANDS

    Mr. Nahale-a. Chairman Rockefeller, Ranking Member Begich, 
Chairman Inouye, and members of the Committee aloha. My name is 
Alapaki Nahale-a, and I am the Chairman of the Hawaiian Homes 
Commission, which was created by Congress via the Hawaiian 
Homes Commission Act of 1921.
    As the Chairman of the Commission, I also serve as the 
Director of the Department of Hawaiian Home Lands, charged with 
filling the purpose of the Act, to provide homestead 
opportunities for Native Hawaiians on the 200,000 acres held in 
trust for their benefit. It is especially an honor for me to 
sit before you because I am a direct beneficiary of the 
Hawaiian Homes Commission Act. I was only five when our family 
received our homestead, but I remember it like it was 
yesterday. The program was a turing point for my family, giving 
us the opportunities that come with home ownership and proving 
us a solid foundation upon which I could build a quality life 
for my own family.
    And so, today, with gratitude in my heart and hopes for a 
better future, I thank you for this time to share the needs of 
the Hawaiian Community and the opportunities that broadband 
brings for the continued improvement of Native Hawaiians and 
all native people.
    About 20 percent of the nearly one and a half million 
residents of the State of Hawaii are Native Hawaiian, and this 
percentage will continue to rise. While most people associate 
Hawaii with Honolulu and Waikiki, at its heart, Hawaii is still 
a rural state.
    Broadband is a powerful tool that can be used to transform 
and advance our people with a greater level of economic self-
sufficiency, educational achievement and cultural awareness and 
pride.
    Native Hawaiians, like American Indians and Alaska Natives, 
face similar social, economic challenges, and we can better 
address these problems and help to improve our chances for 
success through the use of technology and access to broadband.
    Broadband is a great equalizer for Hawaiians. It is the 
tool that will allow us to remain in our home communities and 
still thrive. We can be safe with reliable access to police and 
fire protection; our young people can take advantage of college 
courses without having to move to another island; we can raise 
our families within our community because of enhanced economic 
opportunities; we can spread native language as a living 
language with high-speed connectivity between the schools, 
between the islands and beyond; and we can access healthcare 
specialists via teleconferencing from our local doctors' 
offices.
    Ensuring equitable access to broadband is an important step 
in Congress' clear intent with advancing rehabilitation and 
welfare of Native Hawaiians.
    Let me share with you some real examples: Last week I had 
the privilege to travel to the Island of Maui to visit Kahiki 
Nui, a 20,000 acre Hawaiian Homelands Community on the Slopes 
of Haleakala. It is the largest and most remote of our active 
homelands. Getting there involves a three- hour, four-wheel 
drive off-road adventure; and while residents there have no 
grid of electricity or running water, they do have telephone 
and broadband service. They can surf the net, get e-mail and 
Skype with friends and family.
    With broadband access, remote parcels like Kahiki Nui can 
be opened up for greater homesteading possibilities. It allows 
my department to provide not only urban developer-built 
subdivisions, but also farming and ranch opportunities in 
remote areas.
    Broadband deployment also serves as incubators for economic 
development. Hawaiian Homes Technology or HHT is a job creation 
and community capacity-building initiative which began in the 
Native Hawaiian Homestead Community of Anahola on the Island of 
Kauai. Through the use of broadband the opened a business that 
converts legacy data from files, microfilm, microfiche, 
diagrams, blueprints and images into digital, electric files. 
HHT has been able to create living wage technology jobs and 
economically challenge the Native Hawaiian Communities and 
develop homegrown technology and managerial skills.
    Through broadband and information technology, Native 
Hawaiians can choose to live and work in the communities where 
they grew up without having to move away to support their 
families.
    On the education front, prior to being appointed to the 
Hawaiian Homes Commission, I was the Executive Director of a 
culturally based public charter school located on Hawaiian 
Homelands in Keaukaha on Hawaii Island. And, toward the end of 
my tenure we began planning for long distance learning 
opportunities so our students could take courses via the 
Internet that currently were not available to them. It's 
similar to what Federal Communications Commission Chairman 
Julius Genachowski witnessed when he visited the rural Native 
Hawaiian Community of Nanakuli, where he witnessed firsthand 
how broadband connected the gifted high school student to an 
advanced placement calculus class being taught virtually from 
another island.
    Broadband has allowed our cash-strapped public school 
system to leverage limited teaching resources, to reach 
multiple campuses and more students.
    In conclusion, broadband will allow Native Hawaiian 
Communities to leapfrog over the digital divide that has 
historically held us back, enabling us to succeed in the 21st 
Century and beyond.
    Sadly, nearly half of our homestead land does not have 
broadband connection. The FCC's National Broadband Plan 
recommends establishing a Native Broadband Fund; we fully 
support this. We believe that the deployment of broadband into 
Hawaiian Homelands and rural Native Hawaiian Communities 
accelerates our ability to address the social, health, 
education, and economic challenges we face.
    With modern technology, imagination, and hard work, 
broadband infrastructure will allow Native Hawaiians to excel 
into the next century and beyond.
    Mahalo.
    [The prepared statement of Mr. Nahale-a follows:]

   Prepared Statement of Alapaki Nahale-a, Chairman, Hawaiian Homes 
      Commission; and Director, Department of Hawaiian Home Lands
    Senator Inouye and members of the Committee, my name is Alapaki 
Nahale-a. I am the Chairman of the Hawaiian Homes Commission which was 
created by Congress through the Hawaiian Homes Commission Act of 1921. 
As the Chairman of the Commission, I also serve as the Director of the 
Department of Hawaiian Home Lands, charged with carrying out the 
mission of the Act to provide housing and economic opportunities for 
Native Hawaiians utilizing the 200,000 acres that are held in trust for 
their benefit. It is especially an honor for me to sit before you, as I 
am among the 37,800 beneficiaries under this Act, born and raised on 
Hawaiian Home Lands in Keaukaha on the Island of Hawaii. Thank you for 
this opportunity to share with you the needs of the Hawaiian community. 
Broadband is a powerful tool to transform and advance our people to a 
greater level of economic self-sufficiency, educational achievement, 
and cultural awareness and pride.
    The eight primary islands and the immediate surrounding ocean area 
cover roughly 79,625 square miles which is slightly larger than the 
State of Nebraska. While most people associate Hawaii with Honolulu and 
Waikiki, Hawaii is, at its heart, a rural state. I have taken the 
liberty of attaching a map with my written testimony to illustrate the 
truly rural non-contiguous nature of our state.
    Today, Hawaii's population is approximately 1.4 million people. 
Native Hawaiians make up about 20 percent of the state's population and 
are most concentrated on rural Oahu and the neighbor islands. Our 
population is growing with Native Hawaiian students making up 28 
percent of public school enrollment. Moreover, this percentage grows to 
37 percent when you exclude Oahu schools.
    Native Hawaiians, like American Indians and Alaska Natives, face 
similar social-economic challenges. They are overrepresented in the 
negative indicators including income levels, health and well-being, 
educational levels, prison populations, and homelessness. It is my 
belief that we can address these problems and improve our chances for 
success through the use of technology and access to broadband.
    The State of Hawaii, and its rural Native Hawaiian communities in 
particular, face unique hardships in accessing broadband because of the 
state's non-contiguous configuration in the middle of the Pacific 
Ocean. Connectivity is provided by a combination of submarine fiber 
optic systems and terrestrial fiber systems. Since modern fiber optic 
systems no longer require a regeneration point in Hawaii, fewer trans-
Pacific cables are located in Hawaii. Ultimately, this reduces Hawaii's 
connectivity to the rest of the world and results in higher costs to 
users which directly impact the state's ability to conduct advanced 
research, expand distance education, and further tele-health services 
for its citizens.
    In order for rural and remote Native Hawaiian communities to have 
access to broadband, the infrastructure must first reach the State of 
Hawaii before it can be deployed to the rural areas of Oahu and the 
difficult to reach remote communities on the neighbor islands. Once 
within our state's borders, our islands are separated by miles of open 
ocean. As such broadband systems require both a heavily armored 
submarine and a protected terrestrial fiber optic network that is able 
to withstand the natural disasters that have historically plagued the 
Hawaiian Islands. This means higher costs for carriers to deploy and 
maintain network facilities with little means of recovering these 
expenses. In fact, some rural Native Hawaiian communities are relegated 
to dial-up service because service providers determined that any 
further upgrades were not cost-effective.
    Broadband is a great equalizer for our Native Hawaiian communities. 
It is a tool that will allow us to remain in our communities and 
thrive. We can be safe with reliable access to police and fire 
protection. Our young people can take college courses without having to 
move to another island. We can raise our families in our community 
because we have economic opportunities. We can access health care 
specialists in Honolulu via teleconferencing and tele-health 
technologies.
    In July 2010, Federal Communications Commission Chairman Julius 
Genachowski visited Hawaii to see firsthand the challenges that Hawaii 
and Native Hawaiians face. He addressed a Native Communications 
Roundtable attended by American Indian, Alaska Native, and Native 
Hawaiian leaders and community members who came to discuss their 
telecommunications challenges. Interestingly enough, whether the 
speaker represented the Inupiat people from northwestern Alaska, the 
Mandan, Hidatsa, and Arikara Nation from the great plains of North 
Dakota, or a Native Hawaiian homesteader from rural Waimea on Hawaii 
Island, the message was consistent--their biggest telecom challenges 
were the geographic isolation of their communities and the lack of 
capital to invest in a broadband infrastructure. These native leaders 
discussed with Chairman Genachowski the value of establishing a Tribal 
Broadband fund to support sustainable broadband deployment and adoption 
for native communities. He was given an aerial tour of Hawaii Island to 
see its expansive, remote nature, and the difficulty of reaching and 
connecting with many in Hawaiian communities.
    Chairman Genachowski also witnessed how broadband connected a 
gifted high school student from the rural Native Hawaiian community of 
Nanakuli on Oahu to an Advanced Placement calculus class being taught 
on the Island of Maui. In the early days, instructor Michele Sera 
taught students on other islands via the telephone, and later through a 
dial-up Internet connection. Today, she is able to effectively teach 
students from multiple locations through video-conferencing. Broadband 
allows our cash-strapped public school system to leverage limited 
teaching resources to reach multiple campuses. This gifted student was 
able to take an advanced class not offered at his campus without having 
to travel long distances from his rural neighborhood. He was not left 
behind. This enlightened example must be expanded to other courses and 
programs throughout the state. This can only happen with broadband 
connectivity.
    Native Hawaiians have led the way in the perpetuation of their 
native language. Their efforts have resulted in a highly regarded 
program where children learn and speak their native language from age 
three all the way through a doctoral program at the University of 
Hawaii at Hilo. Imagine how far and how fast this Native language 
renaissance can spread as a ``living language'' with high-speed 
connectivity between the schools, between the islands, and beyond. 
Embedded in the native language revival is a healthy dose of self-
esteem about the literary greatness of our ancestors to propel our 
young people forward with self-confidence and optimism.
    Broadband deployment into Native Hawaiian communities can also 
serve as incubators for economic development. Hawaiian Homes Technology 
(HHT) is a job creating and capacity building initiative which began in 
the Hawaiian homestead community of Anahola on the Island of Kauai. 
Through the use of broadband, they opened a digitization business, 
converting legacy data from files, microfilm, microfiche, diagrams, 
blueprints, and images into electronic files. HHT has been able to 
create living wage technology jobs in economically challenged Native 
Hawaiian communities. Through broadband and information technology, 
Native Hawaiians can choose to live and work in the communities where 
they grew up without having to move away to support their family. With 
broadband infrastructure in more communities, a person's imagination, 
entrepreneurship, and old-fashioned hard work will be the only 
limitation to success.
    Broadband deployment can also be a powerful tool to preserve Native 
Hawaiian culture and history. One such project, Ho`olaupa`i, focuses on 
digitizing daily newspapers published in the Hawaiian language between 
1834 and 1949. For years, these newspapers languished in museum 
archives, many too fragile for people to access. Today, the newspaper 
pages are individually digitally scanned and converted into searchable 
text files using optical character recognition software. After being 
reviewed by language experts, these files are uploaded to 
www.nupepa.org, where members of the public can explore the wealth of 
information and wisdom stored in these pages.
    Hawaiian cultural treasures, locked safely behind the climate 
controlled walls of the Bishop Museum, can also now be shared with the 
community at large without ever stepping foot on the museum's Honolulu 
campus. The website www.hawaiia
live.org features images of Hawaiian artifacts and cultural treasures, 
along with primary source materials which educators utilize to teach 
Hawaiian history and culture. The educational resources include 
contemporary videos, historic footage, archival audio files of songs 
and chants, essays, and lesson plans which are tied to the public 
school benchmarks. Through broadband, students and teachers now have 
unprecedented access to authentic Hawaiian educational resources.
    Broadband is just beginning to provide rural Native Hawaiian 
patients with quality acute health care services using tele-health 
technology which eliminates the time and expense of traveling to major 
hospitals on Oahu. On the rural island of Molokai, a Native Hawaiian 
cancer patient utilized video conferencing for a virtual consultation 
with her Molokai medical providers and her oncology specialists in 
Honolulu. The system was not perfect, and at times the screen images 
would pixilate or even freeze. Nevertheless, the patient and her 
husband explained how much they valued the videoconference tool, 
without which she would have had to travel to Oahu for each oncology 
treatment. Every trip is expensive, time-consuming, stressful, and 
emotionally and physically draining. The Molokai medical team even 
shared anecdotally that without the videoconferencing, some Native 
Hawaiian patients would forego treatment with specialists in Honolulu 
because of the cost and stress.
    Unfortunately this tele-health option is not yet widespread. 
However with improved technology and broadband infrastructure, the 
reliability and viability of this service will undoubtedly expand to 
other health care services.
    Despite the challenges of geography and expense, broadband can be 
the great equalizer for Native peoples, particularly those residing in 
rural communities. We believe it will allow Native Hawaiian communities 
to leapfrog over the digital divide that has historically held us back, 
enabling us to succeed in the 21st century and beyond.
    The FCC's National Broadband Plan recommends establishing a Native 
Nations Broadband fund. We fully support this. We believe that the 
deployment of broadband into Hawaiian Home Lands and our rural Native 
Hawaiian communities accelerates our ability to address the social, 
health, education, and economic challenges we face. Thus far the Native 
Hawaiian community is beginning to recognize the transformative effect 
of broadband. With modern technology, imagination, and the necessary 
broadband infrastructure, Native Hawaiians will be able to excel into 
the next century and beyond.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Inouye. Thank you, Mr. Chairman.
    And, now it's my pleasure to call upon the President and 
Chief Executive Officer of the Native Public Media, Ms. Loris 
Ann Taylor.
    Ms. Taylor.

  STATEMENT OF LORIS TAYLOR, NATIVE PUBLIC MEDIA AND NATIONAL 
              CONGRESS OF AMERICAN INDIANS (NACI) 
                TELECOMMUNICATIONS SUBCOMMITTEE

    Ms. Taylor. Thank you. Chairman Inouye, Senator Udall, 
members of the Committee, on behalf of the National Congress of 
American Indian and Native Public Media, I am honored to 
provide testimony on how to close the digital divide for our 
country's Native Nations.
    In the United States, there are 565 federally recognized 
American Indian tribes and approximately 4.1 million American 
Indians and Alaska and Hawaiian Natives. Thirty-two percent of 
this population still is without basic telephone service. 
Twenty-five percent live at or below the poverty line. Twenty-
two percent are unemployed. Ninety percent of Native Americans 
have no access to high speed Internet. Less than 0.3 percent of 
the broadcast stations in this country are licensed to Native 
Americans.
    The absence of adequate communications services in Native 
America is no accident. Decades of failed Federal policy, 
market forces, and the socioeconomic conditions of Native 
American populations, located in some of the most remote areas 
of the country, result in high build-out costs for all media. 
Because of these factors, wire-line carriers frequently end 
their deployments at the borders of tribal land or serve the 
populated fringes, not the entire reservation.
    In February 2010, the Federal Communications Commission 
adopted a proposal that promotes the sovereign rights of tribes 
by giving them a priority in the allocation of spectrum that 
serves tribal lands. The Native Nations priority is currently 
limited to broadcast spectrum and to tribes with reservations.
    Two hundred fifty-three tribes, almost half of the 565 
federally recognized tribes, are landless. For the Native 
Nations priority to be truly meaningful, it must be extended to 
all tribes and to all forms of spectrum.
    We applaud recent FCC proceedings that explore that 
potential.
    Last year, the FCC established the Office of Native Affairs 
and Policy to coordinate Federal Communications' policy and 
redress years of policy neglect of Native Nations. Within 
months of its creation, the Commission launched three 
proceedings. Those proceedings seek to extend the broadcast 
tribal priority to improve access to mobile wireless 
communications, and to inquire into ways of improving broadband 
deployment to Indian country and strengthening the FCC's 
nation-to-nation consultation process.
    Collectively, these proceedings focus more attention on the 
communication needs of Native Americans than has been the case 
for the preceding history of the Communications Act.
    It is critical that this attention not be fleeting or 
symbolic. With a budget sufficient for its mission, the Office 
of Native Affairs and Policy cannot carry out its mission of 
consultation with tribes on a government-to-government basis.
    There is currently no line item in the FCC's budget for the 
Office of Native Affairs and Policy and its consultation with 
tribes. We ask that you take this office and its functions as 
seriously as we do by assuring that it is adequately funded.
    NCAI has proposed a budget of $1.5 million for the Office 
of Native Affairs and Policy.
    Only a handful of tribes and tribal organizations received 
grants from the Broadband Initiatives Program and the Broadband 
Technology Opportunities Program administered by the Department 
of Commerce and the Department of Agriculture. It is not too 
late to assure that funds intended to stimulate service to 
unserved and underserved areas can achieve that goal by 
bringing broadband service to tribal lands.
    We recommend that funds returned to those programs be 
reserved for the deployment of broadband services to tribal 
lands.
    We also support the establishment of a Native Nations 
Broadband Fund targeted to the needs of Indian country. We also 
believe that grants should not be limited to deployment costs. 
Access is part, and only part of the problem. Unlike telephone 
and broadcast services, which are instantaneously available, 
broadband technologies cannot effectively be used without 
training.
    Programs that teach digital literacy are needed, and Native 
Americas are eager to learn. A study conducted by Native Public 
Media and the New America Foundation shows that where Native 
Americans had Internet access, their rates of use intended to 
be higher than the national average.
    We therefore support the creation of a Native Nations 
Broadband Fund, with the ability to award grants for the 
advancement of digital literacy, as well as for providing 
service to tribal headquarters and other tribal anchor 
institutions.
    In reforming the Universal Service Fund to make broadband 
services more available, it is important not to destroy the 
traditional high cost, Lifeline and Link-up programs that make 
basic analog phone service affordable to many in Indian 
country. Existing programs are equally essential for 
traditional broadcast services, which remain the simplest, 
cheapest, and most effective form of mass communications.
    For the first time in 7 years the FCC in 2007 accepted 
applications for new non-commercial FM stations and has awarded 
construction permits that would double the number of native 
stations.
    Because of the economic recession and threatened cutbacks 
in Federal funding to MTIA's Public Telecommunications 
Facilities Program many of those permits are now at risk of 
expiring.
    If these permits expire, the opportunity for reapplying is 
not likely to arrive for many years to come.
    We urge action on two fronts: first, to give the holders of 
these permits a chance to extend fundraising efforts, a 1-year 
tolling of the construction period for these permits; and 
second, the preservation of funding to the Public 
Telecommunications Facilities Program and Corporation for 
Public Broadcasting
    Without continued support for station operations from CPB, 
all native stations are in jeopardy. Some day Indian country 
will have access to high speed Internet services, wireless 
communications, multiple platforms and all the wonders of new 
technology, but that day has not yet arrived, and will not 
arrive for some time to come.
    For the foreseeable future we need your help in preserving 
and expanding the Public Broadcast System in Indian country.
    And, on behalf of the National Congress of American Indians 
and Native Public Media, I again thank you for the opportunity 
to share this testimony with you.
    [The prepared statement of Ms. Taylor follows:]

Statement of Loris Taylor, Native Public Media and National Congress of 
        American Indians (NACI) Telecommunications Subcommittee
    Chairman Rockefeller, Ranking Member Hutchison, members of the 
Committee, on behalf of the National Congress of American Indians 
(``NCAI'') and Native Public Media (``NPM''), I am honored to provide 
testimony on how to close the digital divide for our country's Native 
Nations.
    In the United States, there are 565 federally recognized American 
Indian Tribes and approximately 4.1 million American Indians and Alaska 
Natives. Thirty-two percent of this population still is without basic 
telephone service. Twenty-five percent live at or below the poverty 
line. Twenty-two percent are unemployed. Ninety percent of Native 
Americans have no access to high speed Internet. Less than 0.3 percent 
of the broadcast stations in this country are licensed to Native 
Americans.
    The absence of adequate communications services in Indian Country 
is no accident. Decades of failed Federal policy, market forces, and 
the socioeconomic conditions of Native American populations located in 
some of the most remote areas of the country result in high build-out 
costs for all media. Because of these factors, wireline carriers 
frequently end their deployments at the borders of Tribal land or serve 
the populated fringes, not the entire reservation.
The Tribal Priority
    In February 2010, the Federal Communications Commission (FCC) 
adopted a proposal that promotes the sovereign rights of Tribes by 
giving them a priority in the allocation of spectrum that serves Tribal 
lands. The Native Nations Priority is currently limited to broadcast 
spectrum and to Tribes with reservations. Two hundred fifty-three 
Tribes, almost half of the 565 federally recognized Tribes, are 
``landless.'' For the Native Nations Priority to be truly meaningful, 
it must be extended to all Tribes and to all forms of spectrum. We 
applaud recent FCC proceedings that explore that potential.
The Office of Native Affairs and Policy
    Last year, the FCC established the Office of Native Affairs and 
Policy to coordinate Federal communications policy and redress years of 
policy neglect of Native Nations. Within months of its creation, the 
Commission launched three proceedings. Those proceedings seek to extend 
the broadcast ``tribal priority''; to improve access to mobile wireless 
communications; and to inquire into ways of improving broadband 
deployment to Indian Country and strengthening the FCC's nation-to-
nation consultation process. Collectively, these proceedings focus more 
attention on the communications needs of Native Americans than has been 
the case for the preceding history of the Communications Act.
    It is critical that this attention not be fleeting or symbolic. 
Without a budget sufficient for its mission, the Office of Native 
Affairs and Policy cannot carry out its mission of consultation with 
Tribes on a government-to-government basis. There is currently no line 
item in the FCC's budget for the Office of Native Affairs and Policy 
and its consultation with Tribes. We ask that you take this Office and 
its functions as seriously as we do by assuring that it is adequately 
funded. NCAI has proposed a budget of $1.5 million for the Office of 
Native Affairs and Policy.
BIP and BTOP Programs
    Only a handful of tribes and tribal organizations received grants 
from the Broadband Initiatives Program (BIP) and the Broadband 
Technology Opportunities Program (BTOP) administered by the Department 
of Commerce and Department of Agriculture. It is not too late to assure 
that funds intended to stimulate service to unserved and underserved 
areas can achieve that goal by bringing broadband service to Tribal 
Lands. We recommend that funds returned to those programs be reserved 
for the deployment of broadband services to Tribal Lands.
The Native Broadband Fund
    We support the establishment of a Native Nations Broadband Fund 
targeted to the needs of Indian Country. We also believe that grants 
should not be limited to deployment costs. Access is part, but only 
part of the problem. Unlike telephone and broadcast services, which are 
instantaneously available, broadband technologies cannot effectively be 
used without training. Programs that teach digital literacy are needed, 
and Native Americas are eager to learn. A study conducted by Native 
Public Media and New America foundation shows that where Native 
Americans had Internet access, their rates of use tended to be higher 
than the national average. We therefore support the creation of a 
Native Nations Broadband Fund, with the ability to award grants for the 
advancement of digital literacy, as well as for providing service to 
Tribal headquarters and other tribal anchor institutions
Traditional Forms of Communications
    In reforming the Universal Service Fund to make broadband services 
more available, it is important not to destroy the traditional High 
Cost, Lifeline and Link-up programs that make basic analog phone 
service affordable to many in Indian Country. Existing programs are 
equally essential for traditional broadcast services, which remain the 
simplest, cheapest, and most effective form of mass communications. For 
the first time in 7 years, the FCC, in 2007, accepted applications for 
new noncommercial FM stations. It has awarded construction permits that 
would double the number of Native stations. Because of the economic 
recession, and threatened cut-backs in Federal funding to NTIA's Public 
Telecommunications Facilities Program, many of those permits are now at 
risk of expiring. If these permits expire, the opportunity for 
reapplying is not likely to arise for many years to come. We urge 
action on two fronts: first, to give holders of these permits a chance 
to extend fundraising efforts, a 1-year tolling of the construction 
period for these permits; and second, the preservation of funding to 
PTFP and CPB. Without continued support for station operations from 
CPB, all Native stations are in jeopardy.
    Some day Indian Country will have access to high speed Internet 
services, wireless communications on multiple platforms, and all the 
wonders of new technology. But that day has not yet arrived and will 
not arrive for some time to come. For the foreseeable future, we need 
your help in preserving and expanding the public broadcast system in 
Indian Country.
    On behalf of the National Congress of American Indians and Native 
Public Media, I again thank you for the opportunity to share this 
testimony with you.

    Senator Inouye. And, thank you very much, Madam President.
    And, now may I call upon the Chief Executive Officer of 
Sacred Wind Communications, Mr. John Badal.

                 STATEMENT OF JOHN BADAL, CEO, 
                SACRED WIND COMMUNICATIONS, INC.

    Mr. Badal. Mr. Chairman, members of the Committee, I want 
to thank you for the opportunity and the invitation to speak to 
you today about something that I feel very passionate about.
    I also want to especially recognize my Senator, Senator Tom 
Udall from New Mexico, who has worked diligently and has the 
same passion as I in bridging the digital divide on Navajo 
Lands in New Mexico.
    I will briefly summarize the information I've given to the 
Committee, Mr. Chairman earlier this week.
    The three major actions that can be taken to deliver 
broadband to unserved tribes in our perspective is localize the 
service provider, create incentives and coordination with the 
Departments of Commerce and Agriculture, and the FCC, for 
tribal or rural telephone company ownership of the Telecom's 
Systems serving the tribes, amend Federal rights of regulations 
that hamstring rural companies need to install infrastructure 
on federally-managed lands, continue and expand Federal 
programs that assure affordable services on tribal lands that 
promote--also promote computer literacy and broadband education 
for the adult population in poor areas.
    Sacred Wind Communications is a private rural telephone 
company that was formed in 2004 to resolve the digital divide 
on the Navajo Reservation in New Mexico. We were created solely 
and simply to change a telecommunications formula that has not 
succeeded in reaching Navajo homes over the past seven decades. 
That formula, still applied on other parts of the Navajo 
Reservation and on many tribes and other rural areas of this 
country can be described as follows: The wrong class of 
company, using a single technology, lacking local synergies, is 
charged with the obligation to serve the most costly areas of 
the country.
    For example, in 2004 there were five national telephone 
companies that provided basic telephone services on portions of 
Navajo Nation, covering three states, and approximately the 
size of West Virginia.
    All were owned by an out-of-state company whose most 
unprofitable exchanges, more than likely, were the Navajo lands 
that they served. All were copper landline-oriented in their 
solutions approach, which ran afoul of the tribe's 
sensitivities to land preservation and to the BIA's rights of 
way processing. None had ventured into the wireless world, to 
reach into remote homes in a distance and land use friendly 
alternative to landline.
    The result for the Navajos was, and is, some of the lowest 
telecommunications availability in the country, on par with the 
Third World.
    The Navajo Nation is one of the poorest areas in the United 
States, with over 40 percent of the population below the 
national poverty level, who live in one of the highest costing 
areas to provide telecommunication services.
    Less than 60 percent of Navajo households have access to 
basic telecommunication services and far fewer have access to 
broadband. Where the Navajo Nation scores highest is in the 
instances of poverty, teen suicide, teen pregnancy, diabetes 
and disabling accidents.
    Sacred Wind in 2006 acquired the Last Mile assets of one of 
those five companies earlier referenced, and secured a $70 
million loan from the USDA's Rural Utility Service.
    At the time of acquisition only 26 percent of our customers 
had access to basic telephone service, and 1 percent of those 
living on the border with the nearby towns had access to 
broadband Internet service.
    Not only is it our mission to reach the elderly in remote 
areas with basic phone service, but an interesting statistic, 
and our experiences, cause us to believe that broadband will be 
popular in remote areas of Navajo lands. Sixty-one and a half 
percent of the grandparents on Navaho lands are the caregivers 
to their grandchildren.
    We, Sacred Wind, introduced the very first broadband link 
to the Navajo community in Northern New Mexico in 2007. We 
applied for and received the USDA RUS Grant to establish the 
very first personal computer and Internet training center in 
our territory. The center was visited by over 4,000 people in a 
2-year period and was declared by the RUS to be one of their 
top success stories.
    That center was used for academics, for job searches and 
for the sale of Navajo arts and crafts.
    Following that model, Sacred Wind developed a broadband 
service that is content-rich for our tribal customers. We have 
even added the newly produced Rosetta Stone Navajo Language 
training as an integral part of our broadband package.
    Our Internet subscriptions grew more than 100 percent in 
the last 12 months.
    Sacred Wind is unique in that we're not a tribally-owned 
company, but in always our focus is tribal. We hire and train 
mostly Navajo and other tribal individuals, a number of whom 
are Army, Navy and Marine veterans who bring with them well-
developed technical skills and a solid work ethic.
    Sacred Wind was recognized as--nationally in 2009 as the 
most inspiring small business in America, as part of an 
American Express NBC Shine-A-Light contest.
    And the nine or so telecommunications companies today that 
are owned by the tribes they serve have similar success 
stories, and along with Sacred Wind, tested--testified to the 
value of local ownership increasing basic and broadband avail--
availability to over 90 percent of our populations.
    A chief factor in delivering adequate tele--telecom 
services to tribal areas involves the ability to use Federal 
lands for infrastructure development. Unlike the permitting 
processes in place within boundaries of municipalities or 
counties, the permitting processes on federally-managed lands 
often serves as an impediment to development.
    In fact, the 4-year achievements of Sacred Wind might have 
been accomplished in three or even two, had a more efficient 
permitting process been made available. Generally, it takes 
Sacred Wind 2 years to develop--or receive, rather, 
authorization to place any infrastructure via 
telecommunications power or a copper wire on tribal lands or 
allotted lands.
    The Navajo Nation manages a professional and effective land 
use review operation, which includes a land department review 
of the network plan, an environmental office review, a 
historical preservation office review, fish and wildlife, land 
appraisal, and Tribal Department of Justice review.
    After all that, the same documentation is then submitted to 
the BIA. The Navajo Nation and any tribe that builds its own 
rights of way review operations should be able to authorize 
infrastructure development on its own lands for their own 
people.
    Similarly, tribes should be given the opportunity to 
influence their own telecommunications future. The Federal 
Government through the Departments of Commerce and Agriculture 
and the FCC should coordinate targeted programs that would 
encourage and enable tribes to own and operate their own 
systems, which in many cases, might call for a partnership with 
a rural local telephone company, and assuming the service 
responsibilities of the out-of-state companies.
    Those should include regulatory changes that encourage the 
creation of privately owned service territories and wireless 
spectrum allocations that are coincident to tribal boundaries.
    Such programs should not be limited to infrastructure 
development, but also computer literacy and Internet training 
that would accompany the expansion of broadband in unserved 
tribal areas.
    With that, Mr. Chairman, I thank you very much. Thank you, 
members of the Committee. I am honored, sir.
    [The prepared statement of Mr. Badal follows:]

Prepared Statement of John Badal, CEO, Sacred Wind Communications, Inc.
    Sacred Wind Communications is a private rural telecommunications 
company that was formed in 2004 to resolve the digital divide on the 
Navajo Reservation in New Mexico. We were created solely and simply to 
change a telecommunications formula that had not succeeded in reaching 
Navajo homes over the past 7 decades. That formula, still applied on 
other parts of the Navajo Reservation and on many tribal and other 
rural lands across our country can be described as follows:
    The wrong company, using the wrong technology, lacking adequate 
resources, is required to serve the most costly areas of the country. 
Or, algebraically: X+Y+Z = F-

        1. The company: A non-rural national or regional company, with 
        bigger, more profitable markets elsewhere, will usually avoid 
        too much attention to high-cost, low-return areas;

        2. The technology: Urban network (and marketing) solutions are 
        applied in cookie cutter fashion to geographically and 
        demographically diverse areas;

        3. The resources: With the more remote rural areas included in 
        a larger telecom company's rate base, the telecom company does 
        not fully qualify for the Federal programs that support 
        development of infrastructure in those remote areas.

    For example, in 2004 there were five local telecom companies that 
provided basic telephone services to portions of the Navajo Nation, an 
area the size of West Virginia:

    --All were owned by an out-of-state company whose most unprofitable 
            area, likely, was the Navajo area they served;

    --All were copper landline-oriented in their solutions approach, 
            which ran afoul of the tribe's sensitivities to land 
            preservation and to the BIA's rights of way process;

    --None owned and operated a mobile wireless affiliate, which 
            prevented them from seeking service alternatives.

    The result for the Navajos was, and is, some of the lowest 
telecommunications availability in the country, on par with parts of 
Africa.
``Localize'' Service Delivery
    Sacred Wind acquired the ``last mile'' assets of one of those 
companies in 2006 and secured a $70 Million loan from the USDA's Rural 
Utilities Service. At the time of acquisition, only 26 percent of our 
customers had access to basic telephone service and 1 percent of those, 
those living on the border with a nearby town, had access to broadband 
Internet service.
    Despite the U.S. Census Bureau's data showing that over 50 percent 
of the Navajo households in this area were below the national poverty 
level, only 1 percent of our customers were participating in the 
federal Tribal Lifeline Program, a low income discount program, when we 
started. Part of the reason for this, we discovered, was that the 
Navajo tribal members living on the reservation shared the same 
telephone prefix numbers with the nontribal people living in nearby 
towns. Thus, the phone company's employees could not easily identify a 
tribal resident from a nontribal resident. Another reason, though, for 
this omission can be attributed to the local phone company's out-of-
town ownership--it's just too costly for them to focus on a high 
maintenance, low return customer base.
    The stories we hear about the elderly, without access to basic, let 
alone broadband, telecommunications services, surviving alone for 3 
days with a broken leg or hemorrhaging as a result of a feral dog 
attack are not exaggerated. Such tragedies occur regularly in our 
remote areas. And, our intuitive assumptions that broadband will 
benefit tribal and other rural people to the same degree that urban 
populations are benefitted by broadband are borne out in the successes 
of tribally-oriented companies. Sacred Wind, for example, introduced 
the very first broadband link to a Navajo community in northern New 
Mexico and concurrently, under the auspices of an USDA-RUS Internet 
training grant, established the very first Personal Computer (PC) and 
Internet training center in that unserved area. The center was visited 
by over 4,000 people in a two-year period and was declared by the RUS 
to be one of their top success stories. We saw people applying for jobs 
online, we saw children using the Internet for academic research, and, 
one of the most popular uses of the Internet, we heard from many people 
who were able for the first time to e-mail and send photos to their 
family members in Iraq and Afghanistan. One young girl brought into the 
center a report she wrote for her class--it was the very first ``A'' 
she ever received. Such was the demand for selling Navajo handcrafts 
online, we developed an arts and crafts website for the community and 
witnessed that the artisans were able to sell their handcrafts for 
about 3 times what they would receive from the local trading posts.
    Following that model, Sacred Wind provided PC and Internet training 
to another Navajo community just prior to our rolling out broadband 
service in their areas. After an 8-month trial period, 64 percent of 
our customers were still subscribing to Internet services, though the 
majority at speeds under 768 Kbps. Nonetheless, we have experienced 
throughout our service territory an increase in our broadband 
subscriptions of over 100 percent just in the last year.
    Our experiences at the Internet training center led us to 
understand, too, that, in order to create a broadband service even more 
attractive to our customers, we had to develop a product that carried 
some cultural significance with it. It was not enough to advertise 
broadband service by a rate of speed and assume that our customers 
would realize the worth of that speed. Sacred Wind has designed, in 
collaboration with Navajo customers and Navajo government employees, a 
broadband service that offers ready access to Navajo history, to Navajo 
traditions, to modern preventative medical advice and traditional 
medicines, and to governmental programs. Just recently we signed an 
agreement with a Navajo language revival group to include, as a 
cornerstone in our service and integrated into our higher capacity 
broadband packages, Rosetta Stone's Navajo Language online instruction. 
This is the most comprehensive, tribally focused broadband product 
available on Navajo lands today.
    Sacred Wind is unique in that we are not a tribally-owned company, 
but in all ways our focus is tribal. We hire and train mostly Navajo 
and other tribal individuals, a number of whom are Army, Navy, and 
Marine veterans who bring with them well developed technical skills and 
a solid work ethic. We have designed a fully Internet Protocol (IP)-
based network tailor made for our geography: a robust fixed wireless 
tower infrastructure and fiber optic and copper landline network that 
now can reach over 60 percent of the unserved homes in our territory 
with both basic voice services and broadband. The remaining 40 percent 
will be reachable with the further installation of one or more relay 
poles from our main towers, a final stage that should be completed by 
2013. Using the most efficient technology for a geographically 
challenging area, the company has increased basic telecommunications 
availability from 26 percent to 60 percent in four (4) years and 
broadband availability from 1 percent of its landline-served customers 
to 99 percent, and to 100 percent broadband availability to its fixed 
wireless-served customers.
    The 9 telecommunications companies today that are owned by the 
tribe they serve have similar success stories and, along with Sacred 
Wind, testify to the value of local ownership and local focus of a 
community's telecom provider. But, even local ownership has limitations 
when it comes to seeking land use authorization on federally managed 
lands.
Amend Federal Rights-Of-Way Practices
    A second chief factor in delivering adequate telecom services to 
tribal areas involves the ability to use Federal lands for 
infrastructure development. Unlike the permitting processes in place 
for installing copper wire, fiber optic cable or telecommunications 
towers within most municipal or county boundaries, the permitting 
processes on federally managed lands often serve as an impediment to 
growth. In fact, the four-year achievements of Sacred Wind described 
above could have been accomplished in two (2) years had a more 
efficient permitting process been made available.
    On Navajo-occupied lands in New Mexico Sacred Wind has applied for 
rights of way authorizations from the Navajo Nation, from the Bureau of 
Indian Affairs, the Bureau of Land Management, the U.S. Forest Service, 
the county and the state. No process is as difficult as at the Bureau 
of Indian Affairs. Generally, it takes Sacred Wind two (2) years to 
receive authorization to place any infrastructure--be it a 
communications tower or a copper or fiber line--on tribal land or 
allotted lands. The Navajo Nation manages a professional and effective 
land use review operation, which includes a land department review of 
the network plan, an environmental office review, an historical 
preservation office review, fish & wildlife, land appraisal, and tribal 
department of justice review. After all that, the same documentation is 
then submitted to the BIA.
    There is no distinction in the land use review process between a 
communications tower or fiber optic cable that is to serve only the 
Navajo people and a gas pipeline that would traverse tribal lands to 
supply off-reservation communities.
    In the most recent example of how the permitting process affects 
Sacred Wind's network development, we submitted 2\1/2\ years ago a 
request to attach a fiber optic cable along 11.6 miles of an electric 
pole line that has existed for over 30 years. That fiber route is 
needed to add capacity to our fixed wireless and copper infrastructure 
that serves over 500 customers. Because the fiber is to be attached to 
an existing pole line within an existing utility easement, we asked the 
BIA for a ``categorical exclusion'' from having to conduct a centerline 
survey and an archaeological and environmental assessment along the 
easement. We were told that, in order to qualify for the categorical 
exclusions to have such surveys and assessments waived, we were 
required to submit the centerline survey, archaeological and 
environmental assessments to demonstrate no possible harm to the 
easement! Such work cost us over $170,000; and the BIA appraised the 
easement for fee purposes to be over $100,000; and we're still waiting 
for a notice to proceed.
Coordinate Federal Government Policymaking
    Finally, a third factor, in part related to the second, that 
affects infrastructure development on tribal lands is the lack of 
coordination of assistance and policy among various government offices. 
With the U.S. Department of Agriculture's longtime leadership in 
helping to develop telecommunications and broadband infrastructures in 
rural areas, and the U.S. Department of Commerce's involvement in the 
Broadband Stimulus Program that stemmed from the American Recovery & 
Reinvestment Act, and the Federal Communications Commission's 
commitment to develop a National Broadband Plan that would also benefit 
rural and tribal areas, one would assume that the Federal government 
speaks in unison in promoting the development of tribal and rural 
infrastructures. Contrarily though, it appears that the very model of 
rural telecommunications development is being torn apart. The local 
rural local exchange carriers (RLECs)--which include Sacred Wind and 
all tribally owned telecommunications carriers--are either handicapped 
in facing off their competition or are being threatened with a change 
in national telecommunications policy.
    For example, the Federal Universal Service Fund's (USF) support for 
rural carriers--even as it is being reformed as we speak--carries 
restrictions in the use of the RLECs' infrastructure that often 
penalize a company for the use of their networks for the provision of 
unregulated services. RLECs generally receive most of their USF support 
for provision of service along the ``local loop'' or last mile, and 
receive other forms of support for provision of interexchange services 
not associated with the local loop. Accordingly, when a company employs 
its infrastructure for broadband services to customers outside of its 
territory, or to deliver added capacity to others' cellular phone 
towers, or to even use its own fixed wireless communications towers for 
mobile wireless communications, the company can actually lose more 
money from USF support than it could gain from free markets. As the 
Federal USF is being reformed, encouraging USF recipients to seek other 
sources of revenue could help sustain the company and the fund.
    The FCC, too, has been hosting regional forums on ways to stimulate 
telecommunications infrastructural development on tribal lands. I 
believe they will conclude that local ownership is the answer. While 
there is a state regulatory and FCC process for a tribe or rural local 
exchange carrier to acquire a larger company's network, as the 9 
telecom tribes and Sacred Wind have gone through, the process now 
involves seeking waivers from rules that have ``frozen'' further 
changes to forming new USF-supported territory. With the current USF 
program's future uncertain, moreover, few USF-qualified companies would 
risk any new rural acquisitions or service territory expansions until 
the economics of such expansions were known. As it is, many RLECs in 
this country, including tribally owned telcos and Sacred Wind, are 
concerned about the USF reform's impact on our ability to pay down our 
current construction loans.
    Similarly, while the FCC schedules from time to time auctions for 
the sale of spectrum licenses for mobile and fixed wireless 
communications services, and offers small rural and tribal carriers a 
discount from the auction sale price, the licensed territories are not 
coincident with tribal lands or with a small RLEC's service territory. 
Such change in spectrum license allocation, while less favorable to the 
national or regional mobile wireless carriers, would make the bidding 
price and the use of the license more attractive to the smaller 
companies.
    We RLECs indeed see ourselves caught in a policy war at the FCC 
that we may not be winning. As stated above, the locally owned rural 
carriers, among them all tribal telcos, have done a superlative job in 
building telecom networks in their areas. It is the national telecom 
companies that have fallen down in developing modern infrastructures in 
many of their rural service territories. These RLECs should be used as 
a model for further broadband development, but are threatened by the 
FCC's apparent predilection toward mobility. With the FCC's inclusion 
of mobile wireless carriers in the USF program, and the ultimate 
disbursement of over $1.5 Billion annually from the fund to national 
and regional mobile wireless carriers, less support for the past decade 
has been made available to RLECs, the local companies. Much of the 
contention surrounding USF reform today revolves around the FCC's 
apparent abandonment of the RLEC-rural model in favor of a mobile 
carrier-national model. If this move toward mobility impacts RLECs as 
it portends to, rural employment, rural development, rural telecom 
service, and RLECs' debt service may be adversely affected.
    This is not to say that mobile services development should not be 
encouraged in tribal and rural areas. It should be built around a 
``localized'' model, though--one in which a tribe or RLEC would have 
opportunities to offer such alternative services to its customers 
either singly or in partnership with a larger carrier. But, as a policy 
matter, it certainly should not preempt ``fixed'' services to the home.
    No single technology is appropriate for Sacred Wind's entire 
service territory where the distance between communities and the 
population density make landline deployment unaffordable, where the 
mountains and canyons within its territory, which separate hundreds of 
Navajo homes in small clusters many miles from each other, make mobile 
wireless communications unworkable in considerable parts of Navajo 
lands. Along flatter terrain, linked to communications towers that 
parallel a roadway, mobile wireless is appropriate. And, even satellite 
broadband has its place. All such alternative solutions should be made 
available to all Americans in as cost effective a manner as possible. 
[To distinguish one wireless technology from another in geographically 
challenging areas, fixed wireless systems take the antenna (and the 
signal) to the home, while with mobile service the customer must travel 
from the home to seek the antenna (and the signal)].
    In either case of a mobile or satellite alternative for rural 
areas, the local RLEC with a fixed wireless infrastructure already in 
place offers the most viable solution: mobility can be added to the 
incumbent RLEC's infrastructure and the RLEC's technicians can be 
trained to service a satellite unit where the RLEC has partnered with a 
satellite company to offer such complementary services. The health of 
the RLEC is required in both cases.
    To ensure that tribes are given the opportunity to influence their 
own telecommunications future, the Federal government, through the 
Departments of Commerce and Agriculture and the FCC should coordinate 
to create more programs that would encourage RLECs to develop tribal-
oriented systems, and to encourage tribes to own and operate their own 
systems, using all alternative telecommunications solutions to meet 
their needs. Many tribes will need your help.
    There exist in New Mexico, for example, three major tribes and 19 
Indian Pueblos with populations that range from a few hundred to many 
thousands. Most are poor and all but the Mescalero Apache Tribe and the 
segment of Navajo lands served by Sacred Wind, are served by national 
or regional carriers. If USF support systems remain intact and the 
regulatory environment would be open to it, we believe that the 
majority of those tribes could economically justify acquiring and 
owning their own telecom systems or by way of tribal consortia. Only by 
understanding how each tribe is served today can we reach conclusions 
as to how they best can be served tomorrow. Resources for such 
understanding are near at hand--talk to the tribes and seek council 
from the nearest RLEC.
Recommendations
    Our recommendations to help tribes bridge the digital divide are:

        1. Create and implement programs that encourage local ownership 
        of telecom networks.

                a. Create FCC regulations that incent tribal or RLEC 
                acquisitions.

                b. Revise FCC spectrum allocations and processes for 
                tribal-specific spectrum use.

                c. Ensure that any FCC USF reform does not reduce 
                tribal RLEC support.

        2. Continue and expand telecommunications development plans for 
        tribal lands that take advantage of the most appropriate 
        technologies.

                a. Departments of Commerce and Agriculture should help 
                tribes assess the viability of localizing telecom 
                systems.

                b. Departments of Commerce and Agriculture should 
                coordinate grant/loan projects that would incent tribal 
                or local RLEC start-ups.

                3. Remove land use impediments for tribal 
                infrastructures.

                a. Departments of Commerce, Agriculture, Interior, FCC, 
                and Homeland Security should coordinate land use 
                policies that affect telecom infrastructures on 
                federally managed lands.

                b. New land use policies should take into account a 
                system's services to tribal members.

                c. Departments of Commerce and Interior should incent 
                tribes to establish their own rights of way procedures 
                and, where tribes have their own review operations in 
                place, remove the Federal government from the process.

                d. Change the Federal utility easement application to 
                include use of the easement by telecom utilities.

                e. Eliminate the archaeological & environmental study 
                requirement on pole attachments on in-place pole lines.

                f. Eliminate the archaeological & environmental study 
                requirement in an easement or on a site where such 
                studies have already been conducted.

        4. Continue and expand PC literacy and Internet training 
        programs for tribal members.

                a. Establish and implement programs supporting the 
                development of broadband content that reinforces tribal 
                culture and values.
                                 ______
                                 
Attachment 1: Configuration of Fixed Wireless to Copper Landline 
        Network with Fiber Optic Backbone for Capacity. ``Distance 
        Friendly'' & 
        Economical in Serving Wide or Geographically Challenging 
        Unserved Tribal Areas
        

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Attachment 2: Sacred Wind's Internet Training for Rock Springs Chapter 
        Members and at the Huerfano Chapter of the Navajo Nation, 
        Enabled by an USDA-RUS Community Connect Grant
        

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Attachment 3: Fixed Wireless Antenna Attachment on the Home, West of 
        Yatahey, NM
        

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Senator Inouye. Thank you, very much, Mr. Badal.
    And, may I now begin the questioning.
    Mr. Blackwell, I have several questions. I'll ask one, but 
I'll submit the rest, if I may.
    Mr. Blackwell, there are 565 federally-recognized tribes, 
approximately 231 federally-recognized Native Alaskan entities 
and about 38,000 beneficiaries of more than 200,000 acres of 
Hawaiian Homelands held in trust throughout the Hawaiian Island 
chain. And it's a lot of ground to cover. And the scope and 
breadth of your responsibilities are, naturally, very great.
    Do you feel that you office has sufficient resources to 
fulfill your responsibilities and achieve your goals; if not, 
how much do you need?
    Now is a good time. I'm Chairman of the Appropriations 
Committee.
    [Laughter.]
    Mr. Blackwell. I'm well aware of that, sir. Well, now that 
we have an office we can do much--we can do much more than just 
what one person can do. I was that single person for 6 years. 
Now that we have an office, we can move forward on many fronts 
at the same time.
    The support that we have from the commission is clear and 
unambiguous from the unanimous decisions to create the office, 
and the Chairman is very supportive of our goals. These include 
increasing the consultation and coordination with native 
communities so that we can create more robust records for the 
commission to act on. These goals include increasing the 
overhauling and increasing the effectiveness of the 
commission's ITI Outreach or Indian Telecommunications Outreach 
program. And, it includes getting to places where the 
commission has never before been in Native America.
    Senator Inouye. You don't know how much you need?
    Mr. Blackwell. Well, Senator, the offices----
    Senator Inouye. Seriously.
    Mr. Blackwell. I'm sorry?
    Senator Inouye. Seriously.
    Mr. Blackwell. Well, the office is still new. We are 
evaluating the need and working with the Chairman's office and 
the Offices of the Managing Director to ensure that we have the 
resources that we need.
    If you wish, I can follow up with you on that, sir.
    Senator Inouye. Please do, because I've been advised that 
you're overworked, and you don't have enough staff. So, I'll be 
waiting for your response.
    Mr. Blackwell. Thank you.
    Senator Inouye. I'll now call upon the Chairman of the 
Hawaiian Homelands.
    Now, will you tell the Committee how many families 
currently live on Hawaiian Homelands, and how many have access 
to broadband?
    Mr. Nahale-a. We have approximately 10,000 homesteads right 
now; so, roughly, 10,000 families on the land. We don't have 
hard numbers on how many access broadband. We estimate that 
less than half. A lot of those families have access to 
commercial broadband and so they're not connecting for cost 
reasons.
    But, I want to highlight that one of the big issues for us 
is that less than half of our 200,000 acres has access to 
broadband currently; so that's another issue for us, is how 
to--how to develop in regions where there is currently no 
broadband access.
    Senator Inouye. I'm certain the Committee is not fully 
aware of the history of Hawaiian Homelands.
    Like most native people, when the Federal Government took 
the responsibility of dealing with them, in the case of 
Hawaiians, they put them out in the most remote areas, away 
from Honolulu. Nanakuli, when it was established, had a trail; 
same thing with Waimanalo. You would have to climb over a 
mountain or go on a beach trail to reach that community.
    The other homeland reservations were on other islands in 
remote areas, and one can imagine the challenges you have.
    What is the most remote? You mentioned one on Maui. Are 
there other remote communities?
    Mr. Nahale-a. There are. We have other areas on Maui, 
Keanae and Hana. Hawaii Island we have land near, you know, 
near the top of Mauna Kea. I think those would be our most 
remote locations.
    If I could share very quick stories, Senator, mentioning 
other homesteads, my sister-in-law's father, who's already 
passed, told us stories about--there was an old road into their 
homestead, and so every day the material for their house, which 
they built by hand, was dropped at the highway, which was about 
a half-mile from the homestead; so every day after school on 
the way home, they'd pick up a few pieces of lumber and walk it 
into their homestead; and that's how they built their house. 
That area since has urbanized, but I would hate to develop 
Hawaiian homes in that fashion.
    Senator Inouye. If I may, Mr. Chairman, I'll be submitting 
a whole series of questions also for your consideration.
    Mr. Nahale-a. Of course.
    Senator Inouye. And now, Mr. Badal, in your testimony, you 
recommended that the Departments of Commerce and Agriculture 
should coordinate telecommunications grant and loan projects.
    In prior hearings before this committee on the American 
Recovery and Reinvestment Act, some members questioned the need 
for broadband programs in two departments.
    Do you have any opinion on that?
    Mr. Badal. Yes, sir, Mr. Chairman. I believe that unless 
the tribes are given greater opportunity to develop 
infrastructure on their own--on their own lands, and unless 
they work--in many cases where they don't have the technical 
skills within themselves--unless they work with the rural 
telephone company that is proximate to the reservation and has 
the telecommunications--has the telecommunications expertise, 
and unless there are incentives for the rural telephone company 
and the tribes, financial incentives, to start an in--an 
operation on a very high costing area to serve with low 
generation of income, this job is not going to get done any--in 
our lifetimes.
    Senator Inouye. Well, Mr. Badal, I will be submitting also, 
several questions, if I may, for your consideration.
    Mr. Badal. Sure.
    Senator Inouye. I can imagine the problems you have because 
I've visited Navajo lands several times; and as you noted, they 
are much larger than some of the states of the union.
    Mr. Badal. Yes, sir.
    Senator Inouye. And, Ms. Taylor, if I may: Native Nations 
and communities have always faced a communications divide. We 
have seen it with traditional landline telephone services and 
wireless communications, but how does lack of access to high-
speed Internet impact or divide our Native Nation's face? Does 
it raise the stakes or make divide that we face more critical 
to remedy?
    Ms. Taylor. Thank you for that question. I think in the 
context of tribal homelands and--and you've referred to 
statistics earlier--ten percent broadband penetration rate. In 
some communities where 911 doesn't exist, where roads remain 
unpaved, and where telephone service is still for one in three 
families--those are pretty dire situations in these 
communities.
    So, in terms of technology, if we want to spur the economy, 
if we want to improve education, if we want to make health 
available long distance, and if we want to improve education 
for our young people, we need technology.
    Last year, Native Public Media and the New America 
Foundation did a study on the Internet use, media and 
technology in Indian Country and found that where Native 
Americans were provided access to the technology, they were 
using it at a greater levels than their counterparts.
    So, simply saying that--that without technology that people 
are not willing to adopt this is a misperception. You know, 
when we--when we think about the technology in terms of what 
America takes for granted, as I was flying in yesterday on the 
airplane, I saw all the towers that surround Washington, D.C.
    In Hopi Country, or in Navajo, or in Sioux Country, or even 
in the Hawaiian Homelands you--- you rarely see these towers 
because they don't exist. If we're going to bridge the digital 
divide, if we're going to bridge the media divide, we need to 
have the technology.
    Senator Inouye. And, you're maintaining that we don't at 
this time, obviously.
    Ms. Taylor. We don't at this time. Let me just tell you, I 
come from the Village of Oraibi in Northeastern Arizona on the 
Hopi Reservation. In my village, to this day we have no running 
water, no electricity, no telephone, and certainly no broadband 
service.
    Last year, in 2010, at my home in Flagstaff, Arizona I 
was--my home was flooded three times. I can tell you that not 
only is technology important during a time when there's an 
emergency, when you're looking for real time information about 
the Red Cross or about the Forest Service, or about mitigation, 
or where you're going to go in terms of shelter for that night, 
you need information; and whether it comes through the 
broadband technology, or whether it's Terrestrial Radio station 
that, you know, that--this is something that is absent from 
Indian country.
    When you ride out to Hopi Country, for example, and where 
you may not--where the nearest hospital may be an hour and a 
half away, you literally are taking your life into your own 
hands.
    These conditions are prevalent, not just on the Hope 
Reservation, but across the nation, and so, I have to submit 
that we really are at a critical threshold. The longer we wait, 
the longer Indian country remains or lags behind.
    Senator Inouye. In other words, what we take for granted, 
the other Americans, are not available to you at this moment.
    Ms. Taylor. Correct.
    Senator Inouye. I thank you very much. I have many other 
questions I'd like to submit to you.
    Now, may I call upon Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Inouye, and thank you 
for your longstanding leadership on issues effecting Native 
Americans and Native Hawaiians.
    I know that the Chairman in many capacities has been a real 
champion, both on the Indian Affairs Committee, I think several 
times, and then with your role as Chairman of the 
Appropriations Committee in this hearing, where you serve in 
your role as pro tem, and the former Chair here. And it seems 
like wherever you are you end up being a great champion for 
tribes.
    So, all of us very much appreciate that, and I think we 
have benefited from it in our states, as Senator Begich and I 
know over the years.
    Senator Inouye. Would you like to run my campaign?
    [Laughter.]
    Senator Udall. I'd be happy to. I'd be happy to. I think 
you just finished, though. And you didn't have much of a 
problem. I think you might hurt yourself with me as a campaign 
manager.
    But, particularly, I'd like to thank all of the witnesses 
today, and thank you, Mr. Badal, for your comments.
    You know, most people probably can't imagine life without a 
telephone; yet today, as Ms. Taylor said, more than 30 percent 
of the households in Indian country don't have basic access to 
telephone service.
    For members of the Navajo Nation in particular, this 
situation is even worse. And, statistics don't adequately 
convey the hardships created by this lack of telephone service. 
Not having a landline or cell phone reception can mean the 
difference between life and death. Imagine not being able to 
call an ambulance when you or your loved one is in medical 
danger.
    We recently had a man outside of Gallup, New Mexico, who 
missed two opportunities for a lifesaving kidney transplant 
because he lacked telephone service at home and could not be 
contacted at home to notify him about the transplants.
    Members of this committee know how essential it is that our 
nation's rural areas and tribal lands are not bypassed when 
broadband networks are built out across the Nation. And 
although they are among the least connected, these areas are 
precisely where broadband technology can help the most, I 
think, as all of you have synthesized in your testimony.
    By overcoming physical distances and geographic isolation, 
broadband can help improve economic development; can help 
improve education; and can help improve access to healthcare.
    So, I was very pleased when FCC Chairman Genachowski paid 
particular attention to this issue and all of the commissioners 
pledged their support for addressing this appalling digital 
divide affecting Native Americans and establish the office. 
And, I hope they'll follow your advice, Ms. Taylor, on the 
resources that are needed. And, I may have an opportunity here 
in a minute to ask Mr. Blackwell about that.
    But, Mr. Badal, maybe to start with you: Sacred Wind won a 
nationwide award for the most inspiring small business, and I'm 
pleased that you can be with us today to share that story. And, 
as you know, western states like New Mexico have more public 
lands and tribal lands than other areas in the country.
    And, the southwest can also be a sensitive place to build 
infrastructure, which is what we're talking about doing here in 
many ways since we have archeological treasures and sites 
considered sacred to the region's native communities.
    However, I think in your testimony, as I've read it, you 
have come up with several ways that you think we could do that 
a little bit better.
    Could you talk a little bit about how Federal agencies 
could make it easier to use existing easements and rights of 
way that have already been built; how to ensure the tribal 
sovereignty in that process is respected; and how do we ensure 
that local communities not feel like new infrastructure is 
being punched through their lands without their approval?
    Mr. Badal. Mr. Chairman--and thank you, Senator Udall. I'll 
be glad to answer those questions.
    I think one of the things that--that could be immediately 
changed in Federal regulations is the--the establishment of 
what we call all utility easements. You know, when--when one 
utility company acquires, through a right-of-way process, which 
involves archeological and environmental assessments and 
centerline surveys, one--when one of those companies acquires 
an easement, it should be allowed to be occupied with less of a 
process by any other utility using the same easement.
    Let me give you an example: We have been working for two 
and a half years to string 11.6 miles of fiber along an 
electric pole line that has been in existence for over 30 
years. We were--we even applied for a categorical exclusion 
from having to conduct archeological, environmental and 
centerline surveys for that easement because it had been in 
place for 30 years, and the archeological and environmental had 
already been done 30 years ago.
    Well, we were required to conduct the archeological, 
environmental assessments and the centerline survey as part of 
the application to apply for a categorical exclusion so that we 
wouldn't have to conduct the archeological and blah, blah, 
blah.
    We're still waiting for our notice to proceed after two and 
a half years.
    Another thing that I think could be done to change Federal 
regulations is to make a distinction in whether BIA, BLM or 
whatever land use authorization regulations they have, to make 
a distinction between infrastructure that is going to be 
directly surveying the tribe on whose land the facilities we 
placed from facilities that are placed on tribal lands across 
the tribal lands serve elsewhere. And, an easy example is, if 
a--well, an easy example: If Sacred Wind wants to install two 
miles of fiber that would run across the tribal lands, or if a 
telecommunications tower on--on tribal lands, the right- of-way 
process for us is exactly the same as stringing a high--a high 
voltage transmission line across Navajo lands to serve the City 
of Gallup or serve the City of Farmington or Albuquerque, and I 
think that's wrong.
    Senator Udall. Thank you for that answer. And, I have other 
questions also that I'd like to submit for the record, but I 
have two quick more questions, just one to Mr. Blackwell:
    And, not to get you into the budget issues, because I know 
you're going to visit with the Chairman about that; but as 
you're becoming operational, what resources or other 
initiatives do you see as being vital to the FCC's success in 
addressing the digital divide on tribal and Native Hawaiian 
lands?
    Mr. Blackwell. Well, thank you for the question. 
Consultation coordination is essential; the ability to work 
directly with native nations and native communities to find the 
solutions that will be lasting. It's a--the process has lasted 
70 years at a point where telephony has--has--the way in which 
the rules were created then largely didn't result in--in 
significant service. We--the statistics have been cited time 
and time again.
    Right now, one of our goals is to place the native nation 
itself in the center of the process that it can be a unique 
demand aggregator; it can be an entity that can bring new 
solutions to--to the fore. And, whether it's the tribe serving 
itself or working in concert with a partner, I believe that 
that will provide new development models.
    We have a notice of inquiry open at the commission right 
now. All of these matters are being raised in it. We're looking 
into the possibility of extending the native nation's priority 
to other--identifying and removing other barriers to entry. 
We're looking at employment and adoption models.
    That consultation and that solution--that development of 
solutions also has to occur within Native America. We can't 
just sit here in Washington and try to come up with solutions.
    We have to go where the problems exist; that is how one 
best understands how to pull together the solutions.
    Beyond that, there is an incredible need right now, with 
the explosion of broadband, for additional training and 
information.
    Prior, when the Commission had a liaison to tribal 
governments--the job that I had for a while--I spent a lot of 
time pushing information into Indian country.
    Now we have partner organizations that we can work with 
that know their constituencies much better, can reach out and 
touch their grassroots much better than we can.
    It's our job to share that information, to get into a two-
way dialogue and return to Washington with--with that knowledge 
in hand to further affect our rules and create new 
opportunities.
    So, in a nutshell that's the answer to your question.
    Senator Udall. I appreciate that comment.
    Ms. Taylor, you know we know how indigenous languages and 
native languages are disappearing all across the world at a 
dramatic rate, and we see that also in the United States, in 
our tribes; Zuni, and Hopi, and Navajo, and others.
    Could you talk a little bit about native radio stations and 
new communication technologies that can be harnessed to 
preserve and enrich cultural activities in native languages; I 
know Mr. Badal talked a little bit about that in his testimony 
on the Rosetta Stone.
    Please.
    Ms. Taylor. Thank you. You asked me about the right 
subject. I love--radio is my life.
    In this country, out of the 565 Native Nations and Native 
Hawaiians and including the Alaska Natives, we have 42 native 
stations that are on air today; approximately 11 of those 
stations are streaming over the Internet. We have a great 
demand for communications, a good robust, healthy backbone in 
Native America. We have approximately 38 construction permits 
right now to build new stations; and then we have a few more 
that are still MX'ed across the country, and we hope that 
they'll be untangled soon.
    And, I lay that as the framework to--to say how vital these 
stations are.
    When you, again, look at the context of what we have in 
terms of communications in Indian country or in Native America 
we're--we don't have a lot. So, these Terrestrial Radio 
stations in most tribal communities are the communication 
systems that--if you don't have a tribal newspaper and if you 
don't have television, if you don't have broadband, these 
native stations are essential and critical in providing the 
information that we need to make decisions on a day-to-day 
basis; information about our own health; information about the 
electoral process; whether it's a tribal election; whether it's 
a national election in terms of culture and language
    And, you're exactly right. A lot of tribal communities are 
facing a--a--a real critical situation of--of language loss. 
What--what these stations do for their communities is to 
provide the vital, cultural and language programming. So, if 
you come to Sioux country, you'll hear Sioux on the air. If you 
come to Navajo, where we have six stations, you'll hear Navajo. 
If you go to Hawaii, you'll hear Hawaiian language programming.
    This is essential, because at the end of the day, localism 
and diversity is important. With 565 nations and more, we 
contribute to the intellectual capacity of this country. We 
contribute to the diversity in terms of history, and culture, 
and language. We contribute to--to civil society in many ways. 
That's what this country is about. And, these stations allow us 
to participate in democratic processes that's available to all 
Americans.
    And, so, we're really asking for something that--that other 
Americans already have. And, so, in terms of--of just what 
these stations play in--in tribal communities, I can't 
emphasize enough. And so, so--so if we--if we're looking at a--
a--a serious defunding issue of public service media, which is, 
I understand around $400 million, which is a lot of money, the 
unseen consequences to the smallest stations in this country 
that serve native nations is basically this: We will go dark if 
we lose funding because over--all our stations rely on funding, 
not just from PTFP and from CPB, of at least 50 to 100 percent.
    So, literally, we are the last to come on board; we're 
going to be the first to feel the consequences.
    Senator Udall. I appreciate your comments.
    Thank you, Mr. Chairman, for holding this important 
hearing.
    Senator Inouye. Thank you, very much.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman. Thank 
you. I just want to echo Senator Udall's comments. You have 
been a great ally for the Alaska Native community and this 
hearing is a very important one because the new age of 
connectivity, not just for--as Myron talked about, before he 
had to leave--just having a phone to call someone, but it's the 
commerce, the medical, the educational opportunities. It is 
really determinative, at least in my state, of the future of 
our rural community, especially the most remote.
    Ms. Taylor, when you were describing your home community, 
as you can imagine, I was thinking of many communities in 
Alaska that have the same situation. And, in a lot of ways it's 
appalling to think that we have that in this country with the 
wealth and resources at our fingertips. To be very frank, it's 
more of a comment. I have some questions I'm going to ask in a 
second, but when you think about the unemployment levels that 
we have--and I've heard the Chairman eloquently talk on the 
floor, and I can't recite his exact quote, but I remember when 
we were talking about unemployment might reach 10 percent and 
the Chairman said in Indian country, that would be a blessing 
if it could get to that.
    And, he's right, because Myron, who was here earlier, his 
community hit almost 22 percent unemployment. A lot of our 
rural communities have 40-50 percent.
    Senator Udall, I remember when we were doing the stimulus 
bill, you made some incredible comments. You remember that 2 
years ago we were running around this place trying to figure 
out how to solve the unemployment problem, and it was reaching 
eight, nine, 10 percent. But we have communities all throughout 
rural America, and rural Alaska, for example, and Native 
country, Indian country, that has 30, 40, 50 percent 
unemployment; and if we're going to attack that issue, part of 
it is going to be how we communicate.
    As you can imagine, throughout this time we get a lot of 
comments in our office about taxes. In rural Alaska, it will 
take about 30 minutes to download a 1040-EZ form. I mean, 
that's not the long form; it's the short form. Thirty minutes 
to get the form, blank. And, then how they send it from there 
is another question. We've seen already almost a 50 percent 
drop in grant applications from rural communities because 
everything's now done online, so in order to apply they have to 
go online; and if they can't get online because they don't have 
broadband or high speed broadband, it just complicates and 
folds out the problem.
    So, the hearing is important.
    Let me, if I can, first to you, Ms. Taylor. I think your 
comment on the Pullock service cuts of the Pullock T.V. radio. 
As you describe those small communities, the small communities 
will be the ones that really get hit; the small radio stations, 
because they have the base funding that I know, Senator Inouye, 
the late Senator Ted Stevens worked on aggressively to make 
sure those small communities had some sort of communication.
    So, I want to echo what you said, and I want to make sure I 
heard it, that if we have dramatic cuts in public radio, rural 
communities, Indian country communities, will be probably the 
hardest hit because not only will the station go dark, it will 
go off the air permanently because they have no other financial 
resources they can tap into--am I hearing you right? I want to 
make sure I'm not putting words in your mouth here.
    Ms. Taylor. You are absolutely on the money. We have 
stations that rely on funding from the Corporation for Public 
Broadcasting for their day-to-day operations. As I mentioned 
earlier, we have approximately 38 new stations that we would 
like to bring on-air, and--and these are stations that are 
self-service stations, primarily, that are being built to serve 
Native America.
    About 10 percent of these stations receive their operating 
revenue from tribal government, from state, county, religious 
organizations, and schools. And, that's a very small amount. 
It--I think all of you are aware that the socioeconomic 
conditions in Native America are--are much more pronounced. 
Fifty percent high unemployment rate, joblessness; but still, 
most people will say, well, the creature needs our housing, you 
know, food on the table, a roof over your head.
    I would have to say that information is just as essential. 
Without information, I don't know how society can function 
adequately. I mean, right now, if you can just look at the 
landscape of what's happening here in Washington, D.C., this--
this budget discussion that we're having at the national level 
seeps down to families on tribal homelands. They want to know 
what's going on here, just as the people in Los Angeles, or New 
York, or any of the cities in Florida, and other states.
    So, you are--you are absolutely correct, we are facing a 
very serious situation.
    Senator Begich. Thank you very much. And, we're very proud 
of those stations, KBNA, which is a nationally renowned, 
native-speaking great program, but maybe there's not an answer 
to it, but more of a statement; maybe there's some that don't 
want information to flow.
    So, I'll leave it at that.
    Let me ask Mr. Blackwell: First off, thank you for being 
here; thanks for the focus that you're bringing to this issue, 
and I, like Senator Udall, am anxious for you to get together 
with the Chairman and indicate your needs, because we know this 
is an important office for all the reasons that have already 
been stated by the testimony.
    One of the questions I have is about the FCC's Native Task 
Force, how will you be working with that; and how will the FCC 
and the Native Nations and Communities be working together to 
implement some of that work that comes out of the task force?
    Mr. Blackwell. Well, thank you for the question. That was 
the--the task force is comprised of elected and appointed 
tribal leaders from across Indian country, and we'll be working 
directly with them to review existing proceedings at the 
commission to--to use them as a--a sounding board for ideas 
that--that are presently within the bureaus and offices. We 
also hope that through these members--let me step back for a 
second.
    The--the FCC Native Nation Broadband Task Force is 
comprised of elected and appointed tribal leaders and senior 
officials from across the bureaus and offices at the 
commission.
    So--so that would be the body that was working together. 
And, in our--we're looking right now at scheduling our first 
meeting in the near future in a face-to-face format, and then 
following up, routinely, and trying to meet together as often 
as possible.
    But, part of the work also, is not just reviewing and 
making sure the Native voices are heard in all the relevant 
commission proceedings, but also to surface new issues, new 
recommendations.
    We also hope that through the Native leadership on this 
task force that it will become something of a watering hole for 
other tribes that are on the learning curve to understanding 
about what's--what's going on in the communications field, and 
new opportunities, and hope that we will lead to more Native 
Nations becoming involved in work with us at the Commission.
    Senator Begich. Very good. Thank you very much.
    Mr. Badal, I don't know if you noticed that the Chairman 
and I were smiling a little bit when you were testifying 
because the description you gave of the poles when you were 
trying to put wires on them, and what you had to go through, 
was amazing, to be very frank with you.
    And, if I heard you right, did I hear you say, it's 
regulatory requirements or it's statutory requirements?
    Mr. Badal. Well, these requirements are embodied in the 
Federal Government CFRs, and these are regulatory.
    Senator Begich. Right.
    Mr. Badal. They are founded somewhere in the statute. But, 
I'll see if I could--those regulatory--I think those rules 
require regulatory changes.
    Senator Begich. Here's the question, and I think I know the 
answer to this. I know, when I was mayor of Anchorage we had a 
university campus area, kind of mixed use with the hospital and 
university. What we did with them, because every building had 
to go through zoning, was we did a campus-wide process which 
they developed; and once they developed it, then they went 
through it. We signed off on the process, but they made sure it 
worked with their campus setting; and we no longer participated 
until, of course, they went to the local city council to get 
approval for it; but not in the process--because it seemed like 
every time they'd come back, we'd have special parking 
requirements in one building; and they'd build a building right 
next door, have new requirements; and yet they wanted to share 
the parking, because they operate different times; and so we 
developed something where they kind of took control of that 
with some guidance from us, but then we stepped back.
    Is that something that would work on tribal lands? Because 
it sounds like we have multiple agencies you may have to go 
through to get a right-of-way.
    I'm not going to comment for the Chairman, but two and a 
half years to get something that already exists for something 
else, when all you're doing is tacking another line on this 
pole with some holes, seems a waste of money, a waste of time, 
and the taxpayers and your rate payers are paying for this. Am 
I wrong?
    Mr. Badal. It is a waste of time and resources. The right-
of-way fees that we have to pay, I think, are unnecessary. We 
work on a, almost a daily basis with different offices of the 
Navajo Nation. I think we have a very good working relationship 
with the Navajo Nation's Land Department that also often agrees 
with us, that getting--or conducting archeological permit or 
doing a centerline survey, or so.
    And in conducting an archeological assessment during an 
evaluation is--is unnecessary in certain instances where 
facilities--the easement already exists, or we're replacing an 
analogue pedestal with a broadband loop carrier cabinet, that 
now provides broadband for everybody.
    The Navajo Nation believes that--that it has to follow BIA 
processes or their work gets bounced back.
    Senator Begich. Gotcha.
    Mr. Badal. So--and, we've had meetings then with us and 
with the Navajo Nation with the BIA, and it's--everybody says 
our hands are tied, our hands are tied because this is what is 
written.
    Senator Begich. But, they write the regulations.
    Mr. Badal. Yes, sir.
    Senator Begich. OK, I just want to make sure I'm not 
missing the boat here. So, I'm going to leave it at that. I 
look to the Chairman. I noticed in your written testimony you 
have several written recommendations regarding some ideas of 
changing procedures and, you know, to be very frank, BIA has a 
lot of things to do. This should be the least of their worries 
if they have tribal governments that are willing to manage that 
for them, because obviously, the tribal governments are going 
to manage for the best of their community, I would assume.
    Mr. Badal. Yes.
    Senator Begich. So, I think they'll do the right thing at 
the end of the day, as long as the procedures are, you know, 
approved; and they often let the tribes do that.
    I mean, I'm perplexed, let me just say that, and maybe 
there should be a 6th seat there, maybe for the BIA, but we'll 
leave it at that.
    But, I think your testimony and your recommendations are 
very interesting and maybe ones that we should help proceed 
with.
    Thank you, very much, to all of you.
    Senator Inouye. If I could follow up on my friends' 
inquiries:
    Mr. Badal, your problems were with the Bureau of Indian 
Affairs.
    Mr. Badal. Mr. Chairman, I'd hate to say my problems are--
and I don't mean to denigrate or criticize them. It's----
    Senator Inouye. A challenge.
    Mr. Badal. Yes, we have--we have challenges dealing with 
several layers of--of government, but I think the--the 
interpretation of the regulations are a little more stringent 
on--on--in our experience, on the BIA side. Now, I work with an 
Indian Pueblo, the Laguna Pueblo in New Mexico as well. They 
have a BIA office right next door to the government offices, 
and they have a different relationship altogether.
    Senator Inouye. But, I assume that the BIA, Bureau of 
Indian Affairs, would be specially concerned with the welfare 
of Indian Country, and so I'm going to be chatting with them.
    Mr. Badal. Thank you, sir, thank you.
    Senator Inouye. And, Ms. Taylor, your testimony reminded me 
that at one time there were 50 distinct languages among Indians 
in this land. About how many are extinct now; do you have any 
idea?
    Ms. Taylor. Wow.
    Senator Inouye. Because, for example, a Cherokee would not 
be able to communicate with a tribe up in the Pacific 
Northwest.
    Ms. Taylor. Well, you know, I was just reading about 
language families in indigenous Americas; 1491, the book--I 
don't know if you read it--but they--the scientists estimated 
that at one time there were approximately 62 language families 
in America alone.
    Senator Inouye. Sixty-two?
    Ms. Taylor. Sixty-two, which is remarkable, that there's 
such an expansive linguistic asset, I would say in North 
America at one time. I don't know if that number is true or 
correct. I don't have any way to validate, but I can say that--
that across the country, all the 565 federally-recognized 
nations, Alaska Natives, and the Hawaiians, many of them still 
speak their native language. And, in some communities they are 
robust and healthy; in other communities they are facing a 
serious language loss.
    Senator Inouye. Thank you, very much, Ms. Taylor. I just 
want to note that Mr. Blackwell had some training before he 
became a member of the Federal Communications Commission. He 
was a senior staffer on the Indian Affairs Committee, and his 
passionate concerns for Native Americans, Alaskans and 
Hawaiians, I'm happy to see, still exist in you.
    So, keep it up. I'm serious, because I want you to do a 
good job; and if you need more money to help these people, 
we'll get it for you, believe me.
    Mr. Badal. Thank you, sir. I will keep it up.
    Senator Inouye. I want to thank the Chairman of the Office 
of Hawaiian Homelands for being with us today. It's a long trip 
to be here just to testify. I hope you found your presence here 
meaningful.
    Mr. Nahale-a. Absolutely. Thank you.
    Senator Inouye. And, I will be carrying on a conversation 
with you on how better to help your departments.
    So, with that, thank you all very much for testifying 
before the Committee.
    And, I would like to announce that the record will be kept 
open for 2 weeks; if you have any additional statement to 
submit, please do so. If you want to make any changes to your 
testimony, you're free to do so.
    Thank you, very much.
    Mr. Nahale-a. Thank you, it's an honor.
    [Whereupon, at 4:19 p.m., the hearing was adjourned.]
                            A P P E N D I X

                               Before the
                   Federal Communications Commission
                          Washington, DC 20554




In the Matter of                    )
                                    )
Innovation in the Broadcast         )       ET Docket No. 10-235
 Television
Bands: Allocations, Channel         )
 Sharing, and
Improvements to VHF                 )



    To: The Commission

            COMMENTS OF THE NATIONAL TRANSLATOR ASSOCIATION
    The National Translator Association (``NTA'') hereby comments on 
the above-captioned Notice of Proposed Rulemaking (``NPRM''), released 
November 30, 2010, and published in the Federal Register on February 1, 
2011 (76 Fed. Reg. 5521). Comments were due within 45 days of Federal 
Register publication and, accordingly, these Comments are timely filed.
    NTA is dedicated to the provision of free over-the-air television 
and audio service to all areas that do not receive adequate coverage 
from a full complement of primary broadcast stations. Its membership 
includes, but is not limited to, owners and operators of TV translator 
and LPTV stations that rebroadcast the signals of full-service 
television stations.
    NTA urges the Commission to hold any decision on this Rulemaking in 
abeyance until all rulemakings and the Table of Allotments are released 
so that the entire rebanding plan can be considered. Many future 
proposals will have an impact on the questions raised in this 
proceeding. Further, the preamble to the instant Rulemaking states that 
this Rulemaking is in furtherance of a ``National Broadband Plan.'' 
There is no such thing as a ``National Broadband Plan.'' The plan 
forwarded to Congress by the Chairman's office was never adopted by the 
Commission; from the timing, it appears that no other Commissioner saw 
the plan before it was released, and the plan itself contained no 
factual predicate for the need for 500 MHz of additional spectrum for 
wireless that the Chairman specified.
    There is a reason that, in the ordinary course of events--and prior 
to any implementing proceedings, a draft of such a plan would be 
released, public comment sought on the proposals, and the public policy 
developed. Nothing purifies ideas better than sunlight.
Introduction
    NTA is participating in this and related Commission proceedings not 
because it believes that repurposing of up to 120 MHz of the existing 
television bands (hereinafter, ``repacking'') is in the public 
interest. but rather because the assumption at the highest levels of 
the Commission appears to be that repacking is going to occur and the 
only remaining questions concern the details.\1\ NTA believes that any 
repacking, even if confined to primary stations, will be greatly 
disruptive to the installed translator base. Translators have been 
fitted in on channels selected to avoid interference to primary 
stations and other translators. Any change in the primary stations' 
channel assignments will have a ripple-down effect, as translators are 
forced to dodge the new full-service assignments.
---------------------------------------------------------------------------
    \1\ Today the Commission is refusing to accept any new TV 
translator applications, even in rural areas (see DA10-2070, October 
28, 2010); the referenced notice states that the approximately 18 
months that had been available for filing new applications was 
sufficient time for filing all that were needed. This reasoning is 
absolutely wrong, given the time it takes for planning, engineering, 
and arranging funding. The freeze on acceptance of new TV translator 
applications clearly demonstrates how repacking will result in the loss 
of expanded service to the public.
---------------------------------------------------------------------------
    It is presumed that a large sum of money will be generated by the 
auction of the recovered spectrum. As described below, NTA urges the 
Commission to include a funding plan to cover the cost of any 
translator modifications made necessary by repacking changes, whether 
made necessary directly by a primary station change or indirectly by 
the forced change of another LPTV station or translator. It is 
important that any program for covering costs be set up as a grant 
program. Volunteer translator groups have trouble making initial 
outlays associated with reimbursement plans.
Combining Multiple Program Streams Through a Single Translator 
        Channel
    The NPRM discusses ``Broadcast Television Channel Sharing'' \2\ by 
full service stations. The transmission of multiple program streams 
from different primary stations is already permitted under the 
translator rules, and a few translators are so operating.
---------------------------------------------------------------------------
    \2\ NPRM, paras. 18-24.
---------------------------------------------------------------------------
    If a translator passes a single digital signal that has two or more 
program streams already combined in it, no extra equipment is required. 
The signal comes in fully encoded and goes out unchanged.\3\
---------------------------------------------------------------------------
    \3\ Many translators take the signal down to the transport stream 
and apply the error correction capability of the 8VSB system, thereby 
``cleaning up'' the signal before retransmitting it, but this 
processing is the same regardless of the number of program streams in 
the signal.
---------------------------------------------------------------------------
    If a translator is to receive and combine two separate program 
sources, however, the process gets much more complicated. It is 
necessary to go down to video and audio and process both programs 
through the full encoding routine. The extra equipment approximately 
doubles the cost of the translator equipment. Because there is no 
economic advantage and the quality (definition) of the combined 
outgoing program streams is compromised, such combining has been little 
used and only in those instances where two output channels are not 
available.\4\
---------------------------------------------------------------------------
    \4\ Over the last 20 years, there have been many time periods 
during which the FCC has declined to accept new applications, forcing 
doubling up as new primary stations have become available.
---------------------------------------------------------------------------
    If repacking forces a translator to combine two or more program 
sources at the translator input into one RF channel, substantial costs 
will be incurred. Simple fairness requires that such costs be covered 
from the auction proceeds.
Impact of Moving Primary Stations
    If primary stations are forced to share one RF channel, there will 
be many instances where one or both will be required to relocate a 
significant distance as part of the process of combining programming 
streams. There are many instances where a translator is sited at a 
particular location because the input signal is uniquely available 
there. Changes in the location of the sources of primary signals are 
going to require modifications of a significant number of translator 
systems, including some relocations.
    Again the associated costs should be covered through a grant 
program financed from the auction proceeds.
Forced Use of Low Band VHF Channels
    A significant number of translators are ``stuck'' on low band VHF 
channels, which are known to be undesirable for digital television. The 
technical inferiority of the low band VHF channels is not being 
accepted by the FCC as the basis for approving a minor change move to a 
high band VHF or UHF channel, in the absence of an actual conflict.
    Further, the Commission is not accepting major change 
applications.\5\ Thus it is not possible to file an application to move 
a low band VHF translator to a high band VHF or UHF channel as part of 
the process of moving to digital operation.
---------------------------------------------------------------------------
    \5\ Freeze on the Filing of Applications for New Digital Low Power 
Television and TV Translator Stations, DA10-2070, October 28, 2010, at 
para. 1.
---------------------------------------------------------------------------
    Accordingly, NTA specifically requests that low band VHF 
translators be allowed to displace to high band VHF or UHF channels as 
a minor change when converting to digital operation.
Improving the Performance of Digital Stations on VHF Channels
    NTA has already submitted comments in MB Docket No. 03-185,\6\ in 
which it was suggested that the maximum ERP for digital LPTV stations 
and translators be increased from 0.3 kW to 3.0 kW. As all translator 
applications are tested by the FCC for outgoing interference to other 
stations using the OET Bulletin 69 Longley-Rice Terrain Dependent 
Algorithm, there is very little potential for interference arising from 
such a power increase. NTA repeats the recommendation that the VHF ERP 
limit be increased to 3.0 kW.
---------------------------------------------------------------------------
    \6\ See NTA Comments in MB Doc 03-185, dated Dec. 17, 2010, page 6.
---------------------------------------------------------------------------
Conclusion
    When and if repacking occurs, there will be major disruptions of 
existing translator systems. NTA urges the Commission to remain 
constantly aware of the impact of repacking on the delivery of 
television programming to the translator-served public.
    NTA continues to believe that the Commission's refusal to accept 
any new translator applications--even in rural areas--is unfair and 
unwise, and asks that the freeze be lifted at the earliest possible 
moment.
            Respectfully submitted,
                                   NATIONAL TRANSLATOR ASSOCIATION

                                   By: /s/ Byron St. Clair

                                       Byron St. Clair
                                       President

                                   /s/ George R. Borsari, Jr.

                                       George R. Borsari, Jr.
                                       Its Attorney
BORSARI & PAXSON
5335 Wisconsin Avenue, N.W.
Suite 440
Washington, DC 20015
(202) 296-4800

March 18, 2011

                                  <all>

</pre></body></html>
